APPENDIX

APPENDIX
TABLE OF CONTENTS
Appendix A Opinion of the United States Court
of Appeals for the Eighth Circuit
(April 20, 2020) ................................... App. 1a
Appendix B Memorandum and Order of the
United States District Court for the
Eastern District of Missouri
(February 1, 2019) ........................... App. 11a

-App. 1a-

APPENDIX A
United States Court of Appeals,
Eighth Circuit
No. 19-1469
Jody Lombardo; Bryan Gilbert,
Plaintiffs– Appellants,
v.
City of St. Louis; Ronald Bergmann, Sergeant,
individually and in his official, capacity as an officer for
the St. Louis City Police Department; Joe Stuckey,
Officer, individually and in his official capacity as an
officer for the St. Louis City Police Department; Paul
Wactor, Officer, individually and in his official capacity
as an officer for the St. Louis City Police Department;
Michael Cognasso, Officer, individually and in his
official capacity as an officer for the St. Louis City
Police Department; Kyle Mack, Officer, individually
and in his official capacity as an officer for the St. Louis
City Police Department; Erich vonNida, Officer,
individually and in his official capacity as an officer for
the St. Louis City Police Department; Bryan Lemons,
Officer, individually and in his official capacity as an
officer for the St. Louis City Police Department;
Zachary Opel, Officer, individually and in his official
capacity as an officer for the St. Louis City Police
Department; Jason King, Officer, individually and in

-App. 2ahis official capacity as an officer for the St. Louis City
Police Department; Ronald DeGregorio, Officer,
individually and in his official capacity as an officer for
the St. Louis City Police Department,
Defendants–Appellees.
Submitted: January 16, 2020
Filed: April 20, 2020
Appeals from the United States District Court for the
Eastern District of Missouri – St. Louis
Before: COLLOTON, SHEPHERD, and ERICKSON,
Circuit Judges.
SHEPHERD, Circuit Judge.
Jody Lombardo and Bryan Gilbert (together,
Lombardo) brought an action under 42 U.S.C. § 1983
against the City of St. Louis (the City) and ten St. Louis
Metropolitan Police Department (SLMPD) officers, in
their individual capacities, arising from physical contact
between the officers and Lombardo’s son, Nicholas
Gilbert, that Lombardo alleges resulted in Gilbert’s death.
Lombardo alleges that the officers used excessive force
during the incident, which caused Gilbert’s death, and that
the City is liable for the officers’ actions due to an
unconstitutional policy and a failure to train its officers.
The magistrate judge1 granted summary judgment in
1

The Honorable Noelle C. Collins, United States Magistrate
Judge for the Eastern District of Missouri, to whom the case was

-App. 3afavor of the officers and the City, and Lombardo appeals.
Having jurisdiction under 28 U.S.C. § 1291, we affirm.
I.
We recite the facts in the light most favorable to
Lombardo, the non-moving party. Walton v. Dawson, 752
F.3d 1109, 1114 n.1 (8th Cir. 2014). On December 8, 2015,
SLMPD officers arrested Gilbert on suspicion of
trespassing and occupying a condemned building and for
failing to appear in court for an outstanding traffic ticket.
Arresting officers brought Gilbert to the “holdover,” a
secure holding facility within the SLMPD’s central patrol
station, and placed him in an individual cell. Gilbert was
cooperative throughout the booking process and checked
“no” to a question asking whether he had a medical
condition of which the officers should be aware. While
Gilbert was in the cell, the officers observed him engaging
in unusual behavior, including waving his hands in the air,
rattling the bars of his cell, throwing his shoe, and bobbing
up and down. Officer Jason King then observed Gilbert tie
an article of clothing around the bars of his cell and his
neck. Officer King stated out loud that Gilbert appeared
to be trying to hang himself. After overhearing Officer
King’s statement, Officer Joe Stuckey entered Gilbert’s
cell but found Gilbert without any clothing tied to his neck.
Officer Stuckey cuffed Gilbert’s left wrist but before he
could cuff Gilbert’s right wrist, Gilbert began to struggle
with Officer Stuckey as well as Officer Ronald DeGregorio
and Sergeant Ronald Bergmann, who had entered the cell
after Officer Stuckey. The officers brought Gilbert to a
kneeling position over a concrete bench inside the cell and
cuffed his right wrist. Gilbert began to struggle again and
referred for final disposition by consent of the parties pursuant to 28
U.S.C. § 636(c).

-App. 4athrashed his head on the concrete bench, causing a gash
on his forehead. Gilbert also kicked Officer Stuckey, after
which Officer Stuckey left the cell and Sergeant
Bergmann called for someone to bring in leg shackles.
Officer Paul Wactor brought the leg shackles to
Gilbert’s cell and assisted Officer King in shackling
Gilbert’s legs. Pursuant to a request made by Sergeant
Bergmann, Officer King left the cell and radioed the
dispatcher to request emergency medical services. Officer
Stuckey left the holdover and yelled into the hallway,
requesting assistance with a combative subject. The
holdover alarm was also activated, which broadcasted that
an officer was in need of assistance in the holdover. Officer
Kyle Mack, one of the officers who responded to the alarm,
entered the cell to find the officers struggling to control
Gilbert, who was still crouched over the bench. Officer
Mack relieved Officer DeGregorio by taking control of
Gilbert’s left arm. Exhausted, Officer DeGregorio left the
cell to catch his breath. To better control Gilbert’s
movements, Officer Mack assisted the other officers in
moving Gilbert from the bench to the prone position on the
floor.
After Gilbert was moved to the prone position, Officer
Zachary Opel relieved Sergeant Bergmann by taking
control of Gilbert’s right side. Feeling winded from the
struggle, Sergeant Bergmann left the cell. Officers
Michael Cognasso, Bryan Lemons, and Erich vonNida
also responded to Gilbert’s cell to assist in bringing
Gilbert under control as Gilbert continued to kick his
shackled legs and thrash his body. Officer Cognasso put
his knees on the back of Gilbert’s calves, Officer Lemons
placed his knee on Gilbert’s leg, and Officer vonNida held
Gilbert’s arm or leg to prevent Gilbert from thrashing his
body. Throughout the altercation, the officers controlled

-App. 5aGilbert’s limbs at his shoulders, biceps, legs, and lower or
middle torso.2 While continuing to resist, Gilbert tried to
raise his chest up and told the officers to stop because they
were hurting him. After fifteen minutes of struggle in the
prone position, Gilbert stopped resisting and the officers
rolled him from his stomach onto his side. By this point,
each of the named officers had participated in the effort to
physically control Gilbert.
At some point while in the prone position, Gilbert had
stopped breathing.3 Officer Mack rolled Gilbert onto his
back and initially found a pulse in his neck but eventually
was unable to find one. Gilbert was transported to the
hospital where he was pronounced dead. Post mortem
testing showed Gilbert had a large amount of
methamphetamine in his system and significant heart
disease. The St. Louis City Medical Examiner’s autopsy
report stated that the manner of death was accidental and
that the cause of death was arteriosclerotic heart disease
exacerbated by methamphetamine and forcible restraint.
Lombardo presented a conflicting expert report, alleging
that Gilbert’s cause of death was forcible restraint
inducing asphyxia.
Lombardo sued under 42 U.S.C. § 1983, alleging 20
counts against Bergmann, Cognasso, DeGregorio, King,
2

During his deposition, Officer Cognasso stated that while Gilbert
was in the prone position, the officers put weight on various parts of
his body, including the “upper right side, and then there was, I
believe, a lower or middle part of his torso.” R. Doc. 77-11, at 4.
3

During his deposition, Officer Lemons confirmed that he had
previously stated, “When the resisting stopped, we stood up. I noticed
that he wasn’t breathing” and later testified, “All I know is when he
stopped breathing, we got up.” R. Doc. 67-5, at 16-17. Lombardo
argues this testimony shows that the officers did not remove Gilbert
from prone restraint until after he stopped breathing.

-App. 6aLemons, Mack, Opel, Stuckey, vonNida, and Wactor
(collectively, the Officers) and the City. By the time the
Officers and the City moved for summary judgment, the
only counts remaining were the counts against each
named police officer in his individual capacity for use of
excessive force and the counts against the City for an
unconstitutional policy resulting in a violation of Gilbert’s
constitutional rights and failure to train its officers
amounting to deliberate indifference to the rights of
persons with whom the police come into contact. The
district court granted the Officers and City’s motion for
summary judgment on the basis of qualified immunity.
The court found that there was no clearly established
Fourth Amendment right against the use of prone
restraint in this context at the time of the incident. The
court also found that because the individual Officers were
entitled to qualified immunity, the City could not be held
liable for the unconstitutional policy and failure-to-train
claims. Lombardo now appeals.
II.
Lombardo argues the district court erred in
concluding the Officers were entitled to qualified
immunity on the Fourth Amendment excessive force
claim. “We review a district court’s qualified immunity
determination on summary judgment de novo, viewing the
record in the light most favorable to [Lombardo] and
drawing all reasonable inferences in her favor.” Krout v.
Goemmer, 583 F.3d 557, 564 (8th Cir. 2009). In making a
qualified immunity determination, we apply a two-prong
inquiry: “(1) whether the facts shown by the plaintiff make
out a violation of a constitutional or statutory right, and (2)
whether that right was clearly established at the time of
the defendant’s alleged misconduct.” Mitchell v. Shearrer,
729 F.3d 1070, 1074 (8th Cir. 2013).

-App. 7aWe begin by addressing whether Lombardo has
presented evidence from which a reasonable jury could
conclude that the Officers violated Gilbert’s Fourth
Amendment right to be free from excessive force because
it is dispositive of the case. Ashcroft v. al-Kidd, 563 U.S.
731, 735 (2011) (“[L]ower courts have discretion to decide
which of the two prongs of qualified-immunity analysis to
tackle first.”). Lombardo argues the Officers used
excessive force when they held the handcuffed and legshackled Gilbert in an asphyxiating, prone position within
a secure holding cell. In determining whether an officer
used excessive force, we apply an objective
reasonableness standard. Ryan v. Armstrong, 850 F.3d
419, 427 (8th Cir. 2017). “We must assess the actions of
each officer from the perspective of a reasonable officer on
the scene, including what the officer knew at the time, not
with the 20/20 vision of hindsight.” Id. (internal citations
and quotation marks omitted). We rely on several factors
in making this determination:
the relationship between the need for the use of force
and the amount of force used; the extent of the
plaintiff’s injury; any effort made by the officer to
temper or to limit the amount of force; the severity of
the security problem at issue; the threat reasonably
perceived by the officer; and whether the plaintiff was
actively resisting.
Id. (quoting Kingsley v. Hendrickson, 135 S. Ct. 2466, 2473
(2015)).
Viewing the facts in the light most favorable to
Lombardo, we find that the Officers’ actions did not
amount to constitutionally excessive force. This Court has
previously held that the use of prone restraint is not
objectively unreasonable when a detainee actively resists
officer directives and efforts to subdue the detainee. Id.

-App. 8aat 427-28. In Ryan, law enforcement officers attempted to
extract a detainee from his cell, which the detainee
resisted. Id. at 424. Officers held the detainee down in the
prone position and one officer twice deployed his taser in
drive stun mode to allow the other officers to place the
detainee’s wrists and ankles in restraints. Id. In holding
that this use of force was not excessive, this Court
explained that “[a]mong” the most important [factors] is
the observation that [the detainee] was actively resisting
the extraction procedure by ignoring directives to lie down
on his bunk and resisting the [officers’] efforts to subdue
him once they entered his cell.” Id. at 428. Similarly, here,
the undisputed facts show that the Officers discovered
Gilbert acting erratically, and even though Gilbert was
held in a secure cell, it was objectively reasonable for the
Officers to fear that Gilbert would intentionally or
inadvertently physically harm himself. Further, Gilbert
actively resisted the Officers’ attempts to subdue him.
Indeed, Gilbert struggled with the Officers to such a
degree that he suffered a gash to the forehead, and several
of the Officers needed to be relieved throughout the
course of the incident as they became physically
exhausted from trying to subdue Gilbert.
Nonetheless, Lombardo argues that Ryan is not on
point. Specifically, Lombardo argues that, unlike Ryan, in
which the detainee was held in prone restraint for
approximately three minutes until he was handcuffed, id.,
Gilbert was held in prone restraint for fifteen minutes and
was placed in this position only after he had been
handcuffed and leg-shackled. Lombardo also argues that
she presented expert testimony that Gilbert’s cause of
death was forcible restraint inducing asphyxia whereas
the undisputed cause of death in Ryan was sudden
unexpected death during restraint. Id. at 424. We find
these differences to be insignificant. This Court has

-App. 9apreviously noted that “[h]andcuffs limit but do not
eliminate a person’s ability to perform harmful acts.”
United States v. Pope, 910 F.3d 413, 417 (8th Cir. 2018),
cert. denied, 140 S. Ct. 160 (2019). As discussed above, the
undisputed facts show that Gilbert continued to violently
struggle even after being handcuffed and leg-shackled.
Specifically, after being handcuffed, he thrashed his head
on the concrete bench, causing him to suffer a gash on his
forehead, and he continued to violently thrash and kick
after being leg-shackled. Because of this ongoing
resistance, the Officers moved Gilbert to the prone
position so as to minimize the harm he could inflict on
himself and others.
The undisputed facts further show that the Officers
held Gilbert in the prone position only until he stopped
actively fighting against his restraints and the Officers.
Once he stopped resisting, the Officers rolled Gilbert out
of the prone position. Lombardo argues Gilbert’s
resistance while in the prone position was actually an
attempt to breathe and an attempt to tell the Officers that
they were hurting him. However, under the
circumstances, the Officers could have reasonably
interpreted such conduct as ongoing resistance. See
Ehlers v. City of Rapid City, 846 F.3d 1002, 1011 (8th Cir.
2017) (finding irrelevant that a nonviolent misdemeanant
was not in fact resisting because “he at least appeared to
be resisting”). Finally, Lombardo’s expert testimony that
the use of prone restraint was the principal cause of
Gilbert’s death is less significant in light of Gilbert’s
ongoing resistance, his extensive heart disease, and the
large quantity of methamphetamine in his system. See
Hill v. Carroll Cty., Miss., 587 F.3d 230, 234 (5th Cir. 2009)
(finding no excessive force where detainee was hog-tied
and plaintiff presented expert testimony that the cause of
death was positional asphyxia).

-App. 10aAccordingly, the Officers did not apply constitutionally
excessive force against Gilbert. Having concluded that the
facts presented do not make out a violation of Gilbert’s
constitutional rights, we need not evaluate the clearly
established prong of the qualified immunity analysis. See
Greenman v. Jessen, 787 F.3d 882, 887 & n.10 (8th Cir.
2015) (affirming the district court’s grant of qualified
immunity based on the constitutional violation prong even
though the district court only reached the clearly
established prong). We conclude the Officers are entitled
to qualified immunity on Lombardo’s excessive force
claim.
III.
Lombardo also argues the district court erred in
granting the Officers and City’s motion for summary
judgment on the unconstitutional policy and failure-totrain claims. We review de novo a grant of summary
judgment. Moyle v. Anderson, 571 F.3d 814, 817 (8th Cir.
2009). Lombardo argues that the City is liable under
§ 1983 because the City’s policy for restraining citizens in
holding cells is facially unconstitutional and caused a
violation of Gilbert’s rights and that the City’s failure to
train its officers or enact constitutional policies amounts
to deliberate indifference to citizens’ rights. However,
“[w]ithout a constitutional violation by the individual
officers, there can be no § 1983 or Monell . . . liability.”
Sanders v. City of Minneapolis, Minn., 474 F.3d 523, 527
(8th Cir. 2007). As discussed above, the Officers did not
violate Gilbert’s constitutional rights. Accordingly, the
City cannot be held liable under § 1983.
IV.
For the foregoing reasons, we affirm.

-App. 11a-

APPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MISSOURI
EASTERN DIVISION
JODY LOMBARDO and BRYAN
GILBERT,

Case No. 4:16CV-01637-NCC

Plaintiffs,
v.
SAINT LOUIS CITY, RONALD
BERGMANN, JOE STUCKEY,
PAUL WACTOR, MICHAEL
COGNASSO, KYLE MACK,
ERICH VONNIDA, BRYAN
LEMONS, ZACHARY OPAL,
JASON KING, and RONALD
DEGREGORIO,
Defendants.
MEMORANDUM AND ORDER
This matter is before the Court on Defendants’ Motion
for Summary Judgment (Doc. 63).1 The Motion is fully
1

The parties have consented to the jurisdiction of the
undersigned United States Magistrate Judge pursuant to 28 U.S.C.
636(c)(1) (Doc. 12).

-App. 12abriefed and ready for disposition. For the following
reasons, Defendants’ Motion for Summary Judgment will
be GRANTED.
I. Legal Standard
Summary judgment is appropriate when no genuine
issue of material fact exists in the case and the movant is
entitled to judgment as a matter of law. See Celotex Corp.
v. Catrett, 477 U.S. 317, 322-23 (1986). The initial burden
is placed on the moving party. City of Mt. Pleasant, Iowa
v. Associated Elec. Co-op., Inc., 838 F.2d 268, 273 (8th Cir.
1988). If the record demonstrates that no genuine issue of
fact is in dispute, the burden then shifts to the non-moving
party, who must set forth affirmative evidence and specific
facts showing a genuine dispute on that issue. Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 249 (1986). In
determining whether summary judgment is appropriate
in a particular case, the Court must view the facts in the
light most favorable to the nonmoving party, and all
justifiable inferences are to be drawn in his favor. Benford
v. Correctional Medical Services, No. 1:11CV121 JAR,
2012 WL 3871948, at *4 (E.D. Mo. Sept. 6, 2012) (citing
Celotex Corp., 477 U.S. at 331). The Court’s function is not
to weigh the evidence but to determine whether there is a
genuine issue for trial. Id. (citing Anderson, 477 U.S. at
249). “Credibility determinations, the weighing of the
evidence, and the drawing of legitimate inferences from
the facts are jury functions, not those of a judge.” Id.
(quoting Torgerson v. City of Rochester, 643 F.3d 1031,
1042 (8th Cir. 2011)).

-App. 13aII. Background and Undisputed Facts2
On October 20, 2016, Plaintiffs Jody Lombardo and
Bryan Gilbert (“Plaintiffs”) filed a twenty-count action
pursuant to 42 U.S.C. § 1983 and Missouri state law
against the City and Police Officer Defendants. On
December 8, 2015, Plaintiffs’ son, Nicholas Gilbert (“Mr.
Gilbert”), died while in the custody of the Saint Louis
Metropolitan Police Department (“SLMPD”). There were
multiple SLMPD officers involved in the incident, all of
whom are named Defendants in the lawsuit along with the
City of St. Louis (“City”). Those Officers include: Ronald
Bergmann (“Sergeant Bergmann”), Michael Cognasso
(“Officer Cognasso”), Roland DeGregorio (“Officer
DeGregorio”), Jason King (“Officer King”), Bryan
Lemons (“Officer Lemons”), Kyle Mack (“Officer Mack”),
Zachary Opel (“Officer Opel”), Joseph Stuckey (“Officer
Stuckey”), Erich vonNida (“Officer vonNida”), and Paul
Wactor (“Officer Wactor”).3
Plaintiffs contend that Mr. Gilbert’s death was the
direct result of the use of excessive force (Counts V, VII,
IX, XII, XIII, XV, XVI, XVII, and XVIII), a deliberate
2

The Court’s recitation of facts is taken mainly from Plaintiffs’
Responses to Defendants’ Statement of Uncontroverted Material
Facts (Doc. 78) and Defendants’ Response to Plaintiffs’ Statement of
Additional Material Facts (Doc. 86). The Court also considered the
exhibits submitted by the parties, where appropriate, in making its
decision.
3

Because the Defendant Officers were named as individual
defendants, the Court considers each Officers’ conduct separately in
this section and throughout this Order. Wilson v. Northcutt, 441 F.3d
586, 591–92 (8th Cir. 2006) (“each defendant's conduct must be
independently assessed” in considering a multi-defendant motion for
summary judgment on grounds of qualified immunity because liability
for damages for a federal constitutional tort is personal).

-App. 14aindifference to his need for medical care (Counts VI, VIII,
X, XIV, and XIX), and negligence by Defendants (Count
XX). Plaintiffs further allege that the City is liable for the
death of Mr. Gilbert because its policies, customs, and
practices caused the deprivation of Mr. Gilbert’s
constitutional rights and thus his death (Counts I-IV).
This Court previously dismissed Count XX against the
City as well as the official capacity claims against all of the
named Police Officer Defendants. (Doc. 22.) In Plaintiffs’
response to the Motion for Summary Judgment, Plaintiffs
indicated they are not pursuing their claims for deliberate
indifference to medical needs or common law negligence
claims. They, therefore, consent to dismissal of Counts IV,
VI, VIII, X, XIV, XIX, and XX. (Doc. 79.)
Thus, the Counts that remain are as follows: the § 1983
Counts against the City based on its policies, practices,
protocols, customs, procedures, and training (Counts IIII) and the § 1983 Counts against each named Police
Officer Defendant in their individual capacity based on the
alleged use of excessive force in violation of the Fourth
and Fourteenth Amendments (Counts V, VII, IX, XI, XII,
XIII, XV, XVI, XVII, and XVIII).4
4

In asserting the Fourteenth Amendment, Plaintiffs appear to
seek redress under Fourteenth Amendment’s substantive due
process clause for violations of Mr. Gilbert’s Fourth Amendment
(excessive force) rights. However, the Supreme Court has made clear
that substantive due process is not the appropriate vehicle for claims
where, as here, there is a more definite constitutional provision that
protects against certain government behavior. Cnty. of Sacramento
v. Lewis, 523 U.S. 833, 854 (1998). As such, the Court will analyze the
claims directly under the Fourth Amendment, as applied to state
actors and pretrial detainees through the Fourteenth Amendment
Due Process Clause, rather than as substantive due-process claims.
See Kingsley v. Hendrickson, 135 S. Ct. 2466, 2473; Walton v.
Dawson, 752 F.3d 1109, 1117–18 (8th Cir. 2014); Ryan v. Armstrong,

-App. 15aA. The Events in the Holdover Cell
The undisputed facts are as follows. On December 8,
2015, at approximately 1:35 p.m., Nicholas Gilbert (“Mr.
Gilbert”) was arrested by SLMPD officers on suspicion of
trespassing and occupying a condemned building and for
failing to appear in court for an outstanding traffic
violation, a misdemeanor. After his arrest, Mr. Gilbert,
who was five feet three inches tall and weighed 160
pounds, was brought to the holdover in the SLMPD’s
central patrol station. The holdover is a secure holding
facility within the SLMPD’s central patrol station where
prisoners are kept on a temporary basis before being
transported to the City’s Justice Center downtown. The
holdover is comprised of a booking area, where the clerk
sits behind a semicircular desk, a main holding cell where
prisoners are kept before they are booked, and a locked
cell block with eight individual cells for prisoners after
they have been booked. In the central patrol holdover, Mr.
Gilbert was placed in the main holding cell. During the
booking process, Mr. Gilbert was cooperative, and he
checked “no” to a question asking whether he had any
medical condition of which the police should be aware.
After he was booked, Mr. Gilbert was transferred from
the main holding cell to an individual cell. (Doc. 78 ¶¶ 1316, 22, 24, 25, 26, 31; Doc. 86 ¶¶ 1, 3.)
There were several officers in the holdover area at this
time, including Officers King, Wactor, DeGregorio, and
Stuckey. Officer King, who was in the holdover assisting a
probationary officer with the booking process, observed
Mr. Gilbert in his cell, grabbing at the air. Mr. Gilbert’s
behavior struck Officer King as unusual. Officer Wactor,
154 F. Supp. 3d 798, 807 (D. Minn. 2016), aff’d in part, rev’d in part
on other grounds, 850 F.3d 419 (8th Cir. 2017).

-App. 16awho was also in the holdover area at the time, had
observed Mr. Gilbert waving his hands in the air “almost
like he was practicing some type of martial arts.” Officer
Stuckey, who was in the holdover behind the desk
preparing paperwork for a prisoner transport run, had
briefly noticed Mr. Gilbert acting strangely, rattling the
bars of his cell, throwing his shoe, and bobbing up and
down. Officer Stuckey noticed behavior from Mr. Gilbert
that he associated with Organic Brain Syndrome.5 (Doc.
86 ¶ 84.) However, Officer Stuckey had only glanced at Mr.
Gilbert for a second or two, had no contact with him, and
had no idea whether he had mental problems. (Doc. 78 ¶¶
31–32, 36, 42, 37, 43.)
After Officer King observed Mr. Gilbert grab at the air
and when he looked up again after attending to his
probationary officer, Officer King noticed that Mr. Gilbert
was tying an article of clothing around the bars of his cell
and putting it around his neck. Upon seeing Mr. Gilbert
tie an article of clothing around the bars of his cell and to
his neck, Officer King stated that Mr. Gilbert appeared to
be trying to hang himself. Officers DeGregorio, Stuckey,
and Wactor were in the holdover at the time that Officer
King made that statement. Upon hearing Officer King,
Officer Wactor went to notify a supervisor. Upon hearing
Officer King, Officer DeGregorio looked up from his
paperwork and saw Mr. Gilbert with clothing tied around
his neck and connected to the top bars of his cell.
5

Officer Stuckey testified that “his understanding and knowledge
of OBS is a common term that’s used throughout the department to
identify someone that could have mental issues, could be highly
agitated, could be on chemical substance.” (Doc. 67-8, at 28:12–16.)
Plaintiffs state it has been described as a general moniker used by
officers to describe individuals exhibiting signs of impaired mental
function. (Doc. 86 n.2.)

-App. 17aThereafter, Officer DeGregorio proceeded, like Officer
Wactor, to attempt to alert a supervisor of the situation.
And upon hearing officers state that Mr. Gilbert was
trying to hang himself, Officer Stuckey, who was sitting in
the holdover behind the clerk’s desk, turned around and
saw that Mr. Gilbert had an article of clothing around his
neck. (Doc. 78 ¶¶ 31–33, 36, 38, 40–44.)
Officer Stuckey requested Ms. Veronica Wilburn, the
clerk who booked Mr. Gilbert, to unlock the secure door to
the cell block so that he could respond to Mr. Gilbert’s cell.
Officer Stuckey proceeded to Mr. Gilbert’s cell, and he was
followed by Officer DeGregorio and by Sergeant
Bergmann, a supervisor who had just entered the
holdover and been advised that Mr. Gilbert was
attempting to harm himself. (Doc. 78 ¶¶ 45, 46–47.)
As Officer Stuckey approached Mr. Gilbert’s cell, the
cell door opened.6 When the cell door opened, Mr. Gilbert
did not have any clothing tied to his neck. Early in the
encounter, Mr. Gilbert had his hands up.7 Officer Stuckey
6

The parties dispute whether Mr. Gilbert was inside or outside of
the cell at this point (See Doc. 78 ¶¶ 49–50.) The Court finds this
immaterial, as it is undisputed that the Officers were responding to
Mr. Gilbert’s apparent attempt to hang himself and that Mr. Gilbert
attempted to evade the officers when they arrived. (Doc. 78 at ¶¶ 33–
47, 52–53.) Moreover, this is not relevant under the applicable case
law discussed infra.
7

While it is undisputed that Mr. Gilbert had his hands up early
in the encounter, the parties disagree as to whether Mr. Gilbert was
in a fighting stance or exhibiting signs of aggression. (See Doc. 78
¶ 51.) Defendants point to the testimony of Officer Stuckey, who
testified Mr. Gilbert raised his fists and assumed a fighting stance,
which led Officer Stuckey to believe Mr. Gilbert was going to start
hitting him. (Id.; Doc. 67-8 at 34:19–35:9, 36:10–21) Defendants also
point to the testimony of Officer DeGregorio, who initially entered
the cell with Officer Stuckey. (Doc. 78 ¶ 51.) Officer DeGregorio

-App. 18athen grabbed Mr. Gilbert by his left wrist and attempted
to spin him around to handcuff him. He was able to cuff
Mr. Gilbert’s left wrist, but Mr. Gilbert evaded having his
right wrist cuffed, and he began to struggle with Officer
Stuckey and with Officer DeGregorio and Sergeant
Bergmann, who had arrived in the cell as well. During the
struggle, Mr. Gilbert was brought to a kneeling position
over a concrete bench inside the cell. Officer DeGregorio
attempted to control Mr. Gilbert by grabbing his left bicep
and left wrist. Sergeant Bergmann attempted to control
Mr. Gilbert by grabbing his right arm, which Mr. Gilbert
was flailing and concealing underneath him in an attempt
to avoid being handcuffed. While Mr. Gilbert was kneeled
over the bench, Sergeant Bergmann and Officer Stuckey
were able to get his right wrist cuffed. (Doc. 78 ¶¶ 49, 52,
53–57; Doc. 86 ¶ 8.)
The Officers eventually cuffed both of Mr. Gilbert’s
hands. After he was handcuffed, Mr. Gilbert tried to stand
up, kicked the officers, and reared backwards off of the
bench. Mr. Gilbert also thrashed his head about on the
concrete bench and suffered a gash on his forehead, which
started to bleed. After he was handcuffed, Mr. Gilbert
kicked Officer Stuckey, who had been standing over him
to cuff him, in his groin area, causing Officer Stuckey to
stumble backward. After Officer Stuckey was kicked,
testified that Mr. Gilbert raised a fist toward Officer Stuckey, which
led Officer Stuckey to try and handcuff Mr. Gilbert. (Doc. 67-43 at
59:13–60:8.) Plaintiffs point to the deposition testimony of Officer
King (Doc. 78 ¶ 51), who testified Mr. Gilbert “just had his hands up”
(Doc. 78-2 at 16:24–17:19). Officer King was in the booking area, not
the cell, at this time, and he testified that he was not watching when
the Officers first approached Mr. Gilbert, so he did not witness the
encounter. (Doc. 67-4 at 9:10–22, 16:10–22.) The Court finds this
immaterial for the same reasons stated in the previous footnote and
for additional reasons discussed infra.

-App. 19aSergeant Bergmann called for help and for someone to
bring leg shackles. (Doc. 78 ¶¶ 58–61.)8 Officer Stuckey
then left and went back to the counter by the clerk’s
station and could not see Mr. Gilbert. (Doc. 67-8 at 41:15–
18, 42:21–43:17.)
In response to Sergeant Bergmann’s request for leg
shackles, Officer Wactor retrieved shackles from the
central patrol desk and brought them to Mr. Gilbert’s cell,
where Mr. Gilbert continued to struggle over the bench
with multiple officers. Officer King responded to Sergeant
Bergmann’s request for help, and, after grabbing Mr.
Gilbert’s ankles to keep him from kicking, assisted Officer
Wactor in shackling Mr. Gilbert’s legs. (Doc. 78 ¶¶ 62–63.)
After Mr. Gilbert’s legs were shackled, Sergeant
Bergmann requested that someone call EMS. Sergeant
Bergmann’s intention in requesting EMS was to get Mr.
Gilbert to a hospital to determine if he was fit for
confinement or, alternatively, to be admitted to the
hospital for his suicide attempt. Upon hearing Sergeant
Bergmann’s request, Officer King, who, having assisted in
shackling Mr. Gilbert’s legs was leaving the cell to return
to his regular duties, radioed the dispatcher to request
8

In their Responses to Defendants’ Statement of Uncontroverted
Material Facts, Plaintiffs assert a general “deny” response to the
paragraphs setting forth these facts. (See Doc. 78 ¶¶ 58-61.) In their
blanket denial, Plaintiffs argue that Mr. Gilbert was not ignoring
commands or being violent, but that, instead, he was trying to open
up his lungs to breathe, an act known as “air hunger,” citing as one
source to an expert report from Dr. Francisco Diaz, one of their
experts. Importantly, however, Plaintiffs do not deny the factual
predicate. The Court, therefore, finds that the facts, themselves, are
undisputed. Moreover, the Court excluded Dr. Diaz’s testimony
regarding “air hunger” to the extent he opined that Mr. Gilbert’s
struggles reflected such air hunger. The Court further discusses
analyzes these facts and Dr. Diaz’s report infra.

-App. 20aEMS in connection with Mr. Gilbert’s “possible psychotic
issues.” EMS was first called at 6:15 p.m. (Doc. 78 ¶¶ 64–
66; Doc. 86 ¶ 19.)
In further response to Sergeant Bergmann’s request
for help, Officer Stuckey yelled at the clerk, Ms. Wilburn,
to sound the holdover alarm, but when Ms. Wilburn
appeared unable to locate the alarm, Officer Stuckey left
the holdover and yelled into the hallway for help with a
combative subject. The alarm was also activated, which
broadcasted a looped message stating that an officer was
in need of assistance in the holdover. After Officer Stuckey
yelled for help, he stayed outside the holdover for some
time to compose himself, and he did not return to Mr.
Gilbert’s cell. (Doc. 78 ¶¶ 67–69.)
A number of officers responded to the alarm and to
Officer Stuckey’s calls for help. Officer Mack responded to
the holdover from the report writing room at central
patrol. When he got to the holdover, Officer Mack
observed officers struggling to control Mr. Gilbert, who
was handcuffed and shackled, and crouched over the
bench in his cell. Officer Mack relieved Officer
DeGregorio. Upon being relieved by Officer Mack, Officer
DeGregorio, feeling exhausted, left the cell and went
outside to catch his breath. Officer Mack relieved Officer
DeGregorio’s position holding Mr. Gilbert down after
Officer DeGregorio became exhausted. Officer Mack took
control of Mr. Gilbert’s upper left arm and attempted to
prevent Mr. Gilbert from thrashing about and hitting his
head against the concrete. (Doc. 78 ¶¶ 70–74; Doc. 86 ¶ 42.)
After he relieved Officer DeGregorio, Officer Mack
assisted in moving Mr. Gilbert from the bench to a prone
position on the floor, which was more secure and which
presented less of a tripping hazard. After Mr. Gilbert was
moved to the floor, Officer Opel, who had responded to the

-App. 21aholdover from the report writing room, relieved Sergeant
Bergmann, who told Opel to control Mr. Gilbert’s right
side so Mr. Gilbert would not bang his head on the
concrete. After he was relieved by Officer Opel, Sergeant
Bergmann, feeling winded from an intense struggle,
stepped out of the cell and off to the side. (Doc. 78 ¶¶ 75–
77.)
In addition to Officers Mack and Opel, Officers
Cognasso, Lemons, and vonNida also responded to Mr.
Gilbert’s cell and assisted in bringing him under control.
(Doc. 78 ¶¶ 78.) Officer Cognasso, who had responded
from the rear desk in central patrol when he heard Officer
Stuckey’s plea for help, responded to find Mr. Gilbert
thrashing his shackled legs back and forth, kicking the
officers, and moving his body around. (Doc. 78 ¶ 79.)9
Officer Cognasso put his knees on the back of Mr.
Gilbert’s calves to prevent him from striking anyone.
Officer Lemons, who had responded from the report
writing room to find Mr. Gilbert struggling and kicking,
assisted by placing his knee on Mr. Gilbert’s leg to prevent
him from kicking. Officer vonNida, who had responded
from outside the holdover, assisted by holding Gilbert’s
arm or leg, and securing him so he could not thrash about.
(Doc. 78 ¶¶ 80–82.)
While Mr. Gilbert struggled against the officers on the
floor, the Officers controlled Mr. Gilbert’s limbs at his
shoulders, biceps, and legs and did not place their body
weight on him in a manner that would compress his neck.10
9

See supra n.8. Again, Plaintiffs issue a general denial of this
paragraph based on “air hunger” but do not deny the facts or
testimony.
10

See supra n.8. Plaintiffs issue a general denial of this paragraph
based on “air hunger” and further generally contend in their response
to this paragraph that the Officers held Mr. Gilbert down by placing

-App. 22aMr. Gilbert was trying to raise his chest up during the
altercation. (Doc. 86 ¶ 26.) After struggling with officers
on the ground for several minutes, Mr. Gilbert calmed
down to the point where he was no longer kicking, flailing,
and actively fighting against his restraints, and the
Officers rolled him from his stomach onto his side. (Doc.
78 ¶¶ 84.)11
Officer Cognasso stood up, and Sergeant Bergmann
used his radio to check if EMS was en route and to ask the
dispatcher to have EMS “step it up” so they could “get this
guy [Gilbert] out of here.” A nearly contemporaneous
audio recording of the police dispatcher relaying Sergeant
Bergmann’s request to EMS shows that Bergmann’s call
was made at 6:26 p.m. Officer Cognasso, who heard
Sergeant Bergmann’s call for EMS, left the holdover to
wait outside for EMS to respond. (Doc. 78 ¶¶ 86, 87.)
At some point, Mr. Gilbert’s breathing appeared
abnormal to the officers. After Mr. Gilbert was rolled onto
his side, Officer Mack then rolled Mr. Gilbert on his back,
checked for a pulse, and was able to find a pulse in Mr.
Gilbert’s neck. (Doc. 78 ¶ 93; Ex. E at 22:1-16.)
At some point, Mr. Gilbert stopped breathing. Officer
Mack requested someone retrieve the AED. Officers
vonNida and Opel went to retrieve the AED. Officer Mack
pressure on his back and torso, citing to deposition testimony from
Officer Michael Cognasso, which the Court addresses infra. Plaintiffs
do not dispute, however, the stated facts relating to the shoulders,
biceps, legs, or neck.
11

See supra n.8. Again, Plaintiffs issue a general denial of this
paragraph based on “air hunger” but do not deny the facts or
testimony. Therefore, the factual predicate, including that the
Officers moved Mr. Gilbert to his side once he stopped struggling, is
undisputed.

-App. 23aalso updated Sergeant Bergmann regarding Mr. Gilbert’s
condition, and Sergeant Bergmann radioed dispatch to
upgrade the pending request for EMS to “urgent” on the
grounds that Mr. Gilbert “may not be breathing.” A nearly
contemporaneous audio recording of the police dispatcher
relaying Sergeant Bergmann’s request to EMS shows
that Bergmann’s call was made at 6:27 p.m. Officer Mack
checked Mr. Gilbert’s pulse again and was unable to find a
pulse. After Officer Mack was unable to find a pulse,
Officers Mack and Wactor began performing chest
compressions on Mr. Gilbert as he lay on his back. Officers
Mack and Wactor also performed rescue breathing on Mr.
Gilbert. When Officers vonNida and Opel returned with
the AED, Officers vonNida and Wactor attempted to use
the machine to shock Gilbert’s heart, but the AED
machine never signaled that Mr. Gilbert had a shockable
heart rhythm. At 6:33 p.m., Sergeant Bergmann again
radioed dispatch to check on the status of EMS, advised
that EMS needed to “step it up,” and was told by the
dispatcher that EMS would be arriving “any minute.”
Officers Mack and Wactor performed CPR until the fire
department showed up and the fire department medics
relieved the officers. Eventually, an ambulance arrived
and transported Mr. Gilbert to the hospital, where he was
pronounced dead. (Doc. 78 ¶¶ 95–105.)
There were no video or audio recorders in the holdover
area, so there is no video or audio of these events.
B. The Autopsy & Investigation
After Mr. Gilbert’s death, Dr. Jane Turner conducted
an autopsy for the St. Louis City Medical Examiner. Post
mortem testing performed during Dr. Turner’s
investigation showed that Mr. Gilbert had a large
concentration of methamphetamine in his system and that
he had significant heart disease. (Doc. 78 ¶¶ 106, 107, 109.)

-App. 24aThe parties do not dispute that Dr. Turner’s report stated
that the manner of death was accidental and that the cause
of death was “Arteriosclerotic Heart Disease Exacerbated
by Methamphetamine and Forcible Restraint.” (Doc. 6713 at 138.) In her pathological findings, Dr. Turner
reported contusions and laceration of face, contusions and
abrasions of upper and lower extremities, a small soft
tissue contusion of the left shoulder area, and a fractured
sternum. (Doc. 67-13 at 138, Doc. 67-32 at 34:18–24.) She
did not find any petechial hemorrhages. (Doc. 67-32 at
34:18–24.)
The SLMPD also completed an investigation. As part
of this investigation, photographs were taken, showing
blood on the scene. Each of the Officers was interviewed,
and their transcribed statements were included in a final
police report. Dr. Turner’s autopsy report was provided
to the police and was made part of the investigative report.
(Doc. 78 ¶¶ 112-114.) The Officers were not disciplined.
(See 67-34.)
C. The City’s Training and Policies
The City’s Police Department is internationally
accredited by the Commission on Accreditation for Law
Enforcement Agencies, Inc., or “CALEA,” an
international police accreditation organization, and the
SLMPD’s policies cross-reference relevant CALEA
standards. The City’s use of force policy is long and
detailed, and provides, at its core, that “Officers will use
the least amount of force reasonably necessary to
accomplish their lawful objectives while safeguarding
their own lives and the lives of others.” (Doc. 78 ¶¶ 115,
116.)
Although the parties disagree over whether the City
provided training or had a policy on the use of force

-App. 25aspecifically governing Mr. Gilbert’s situation, it is
undisputed that all of the City’s officers, including the
Officer Defendants, have been trained on the use of force
(also known as “defensive tactics”) and receive monthly
refresher tests on the use of force through the SLMPD’s
“PASS” system. (Doc. 78 ¶ 117.)
The SLMPD’s policy relating to operations in its
holdovers provides, among other things, that prisoners
who are under the influence of alcohol or drugs and who
are violent to the point of being self-destructive should be
continually observed and may be placed in restraints at a
supervisor’s discretion until such time as they are
transported to an appropriate medical facility. The policy
also provides that prisoners who attempt suicide or are
potentially suicidal should be observed at all times and
that officers may confine persons if it is reasonably
believed they are mentally ill or under the influence of
drugs and pose an imminent likelihood of harm to
themselves or others. (Doc. 78 ¶¶ 118–20.)
The SLMPD does not have a specific, separate policy
for restraining emotionally disturbed persons or persons
with organic brain syndrome. Rather, when such persons
must be restrained, such restraints must comply with the
SLMPD’s general use of force policy. In order to avoid the
need for any individual officer to exert great force while
restraining a combative subject, officers are taught to
work as a team to control the subject’s limbs. (Doc. 78 ¶¶
115–116, 118, 121, 130.) Prone restraint is not prohibited
by the SLMPD. (Doc. 78 ¶ 26.)
II. Analysis
The qualified immunity doctrine “shields government
official from civil damage liability for discretionary action
that ‘does not violate clearly established statutory or

-App. 26aconstitutional rights of which a reasonable person would
have known.’” De La Rosa v. White, 852 F.3d 740, 745 (8th
Cir. 2017), reh’g denied (June 5, 2017), cert. denied, 138 S.
Ct. 737 (2018) (quoting Harlow v. Fitzgerald, 457 U.S. 800,
818 (1982)). Qualified immunity is not available “if an
official ‘knew or reasonably should have known that the
action he took within his sphere of official responsibility
would violate the constitutional rights of the [individual],
or if he took the action with the malicious intention to
cause a deprivation of constitutional rights or other
injury.’” Harlow, 457 U.S. at 815 (quoting Wood v.
Strickland, 420 U.S. 308, 322 (1975)). “The qualified
immunity standard gives ample room for mistaken
judgments by protecting all but the plainly incompetent or
those who knowingly violate the law.” Hunter v. Bryant,
502 U.S. 224, 229 (1991) (internal quotations omitted).
In determining whether an officer is entitled to
qualified immunity, the Court employs a two-step analysis
that asks: (1) whether the alleged facts, when viewed in
the light most favorable to the plaintiff, demonstrate that
the official’s conduct violated a constitutional right; and (2)
whether the constitutional right being asserted is clearly
established. Wallingford v. Olson, 592 F.3d 888, 892 (8th
Cir. 2010) (cited cases omitted). The Court may address
either question first. Boude v. City of Raymore, 855 F.3d
930, 933 (8th Cir. 2017) (citing Pearson v. Callahan, 555
U.S. 223, 236 (2009)). “If either question is answered in the
negative, the public official is entitled to qualified
immunity.” Norris v. Engles, 494 F.3d 634, 637 (8th Cir.
2007) (quoted case omitted). “To avoid pretrial dismissal,
a plaintiff must present facts showing the violation of a
constitutional right that was clearly established at the
time of defendant’s act.” De La Rosa, 852 F.3d at 743.

-App. 27aUnder the Fourth Amendment, the test for
determining whether excessive force was used under the
first prong of the analysis is whether “the amount of force
used was objectively reasonable under the particular
circumstances.” Small v. McCrystal, 708 F.3d 997, 1005
(8th Cir. 2013) (quoting Brown v. City of Golden Valley,
574 F.3d 491, 496 (8th Cir. 2009)). See also Hicks v.
Norwood, 640 F.3d 839, 842 (8th Cir. 2011) (“It is settled
in this circuit that the Fourth Amendment's ‘objective
reasonableness’ standard for arrestees governs excessiveforce claims arising during the booking process.”). The
Court determines “whether a use of force was reasonable
by balancing ‘the nature and quality of the intrusion on the
individual’s Fourth Amendment interests against the
countervailing governmental interests at stake.’”
McKenney v. Harrison, 635 F.3d 354, 359 (8th Cir. 2011)
(quoting Graham v. Connor, 490 U.S. 386, 396 (1989)).
The “[r]easonableness of a seizure is determined by
the totality of the circumstances and must be judged from
the viewpoint of a reasonable officer on the scene.” McCoy
v. City of Monticello, 342 F.3d 842, 848 (8th Cir. 2003)
(citing Graham, 490 U.S. at 396–97). Thus, the
reasonableness of force depends on the circumstances
confronting the officers, including factors such as the
severity of the crime at issue, whether the suspect poses
an immediate threat to the safety of the officer or others,
and whether he is actively resisting arrest or attempting
to evade arrest by flight. Shannon v. Koehler, 616 F.3d
855, 862 (8th Cir. 2010) (citing Graham, 490 U.S. at 396).
This inquiry is objective, questioning “whether the
officers’ actions are ‘objectively reasonable’ in light of the
facts and circumstances confronting them, without regard
to their underlying intent or motivation.” Graham, 490
U.S. at 397; see also McCoy, 342 F.3d at 848
(reasonableness “must be judged from the viewpoint of a

-App. 28areasonable officer on the scene, irrespective of the officer's
underlying intent or motivation.”) The Court “must assess
the actions of each officer ‘from the perspective of a
reasonable officer on the scene, including what the officer
knew at the time, not with the 20/20 vision of hindsight.’”
Ryan v. Armstrong, 850 F.3d 419, 427 (8th Cir. 2017)
(quoting Graham, 490 U.S. at 396). “This calculus allows
for the fact that police officers are often forced to make
split-second decisions—in circumstances that are tense,
uncertain, and rapidly evolving—about the amount of
force that is necessary in a particular situation.” Brown,
574 F.3d at 496 (quoting Graham, 490 U.S. at 396). “Once
the predicate facts are established, the reasonableness of
the official’s conduct under the circumstances is a question
of law.” McKenney v. Harrison, 635 F.3d 354, 359 (8th Cir.
2011) (quoting Mann v. Yarnell, 497 F.3d 822, 825 (8th
Cir. 2007)) (internal quotation omitted).
The Court elects to address the “clearly established”
qualified-immunity prong first, because it is dispositive of
the case. See, e.g., Smith v. City of Minneapolis, 754 F.3d
541, 546 (8th Cir. 2014); De Boise v. Taser Int’l, Inc., 760
F.3d 892, 896 (8th Cir. 2014) (even assuming without
deciding that force used was excessive in violation of
Fourth Amendment rights, such rights were not clearly
established at the time of the incident, thus entitling
officers to summary judgment).
A. The Defendant Officers’ conduct did not violate a
clearly established right.
While “the defendant bears the burden of proof for this
affirmative defense [of qualified immunity], the plaintiff
must demonstrate that the law was clearly established.”
Smith v. City of Minneapolis, 754 F.3d 541, 546 (8th Cir.
2014) (citations and internal quotations omitted). The law
must be clearly established at the time the incident in

-App. 29aquestion took place. See Ashcroft v. al-Kidd, 563 U.S. 731,
741 (2011). To determine whether a right is clearly
established for qualified immunity purposes “we ask
whether it would be clear to a reasonable officer that his
conduct was unlawful in the situation he confronted.”
White v. McKinley, 519 F.3d 806, 813 (8th Cir. 2008)
(quoted case and internal quotations marks omitted). In
other words, the “‘contours of the clearly established right
must be sufficiently clear’” such that “‘every reasonable
official would have understood that what he is doing
violates that right.’” De La Rosa v. White, 852 F.3d 740,
745 (quoting Mullenix v. Luna, 136 S. Ct. 305, 308 (2015)
and Anderson v. Creighton, 483 U.S. 635, 640 (1987)).
“‘Put simply, qualified immunity protects all but the
plainly incompetent or those who knowingly violate the
law.’” Id. (quoting Mullenix, 136 S. Ct. at 308).
“Whether the constitutional right at issue was ‘clearly
established’ is a question of law for the court to decide.”
Bishop v. Glazier, 723 F.3d 957, 961 (8th Cir. 2013)
(citation omitted). While a case directly on point is not
required, “‘existing precedent must have placed the
statutory or constitutional question beyond debate.’” De
La Rosa, 852 F.3d at 745 (quoting Mullenix, 136 S. Ct. at
308); see also Davis v. Hall, 375 F.3d 703, 712 (8th Cir.
2004) (“Officials are not liable for bad guesses in gray
areas; they are liable for transgressing bright lines.”)
(quotation omitted). In fact, the Supreme Court recently
reiterated that “[u]se of excessive force is an area of the
law ‘in which the result depends very much on the facts of
each case,’ and thus police officers are entitled to qualified
immunity unless existing precedent ‘squarely governs’ the
specific facts at issue.” Kisela v. Hughes, 138 S. Ct. 1148,
1153 (2018) (quoting Mullenix, 136 S. Ct. at 309).

-App. 30aWhere there is “no controlling Eighth Circuit
authority placing the question beyond debate,” qualified
immunity applies unless there is a “‘robust consensus of
cases of persuasive authority’” demonstrating whether
the particular conduct, under similar circumstances,
violated clearly established law. De La Rosa, 852 F.3d at
745–46 (quoting al-Kidd, 563 U.S. at 742). Moreover, when
there is no controlling Eighth Circuit authority and other
circuits are split on the issue, the law is not clearly
established. See, e.g., Burton v. Richmond, 370 F.3d 723,
730 (8th Cir. 2004).
In this case, Plaintiffs cannot defeat the Officers’
defense of qualified immunity unless Plaintiffs are able to
show that a reasonable officer would have been on notice
as of December 8, 2015, that the Officers’ conduct violated
a clearly established right. See De Boise v. Taser Int'l,
Inc., 760 F.3d 892, 896 (8th Cir. 2014). Even assuming the
Defendant Officers did not use objectively reasonable
force under the first prong of the qualified immunity
analysis and after a careful review of the record, the Court
finds that the Officer Defendants are entitled to summary
judgment because they did not violate a clearly
established right. For the reasons discussed below, the
Court finds controlling Eighth Circuit law does not place
the question beyond debate and there is not a robust
consensus of persuasive authority, as the circuits are split
over the outcome in cases with similar facts. As such, the
Defendant Officers are entitled to qualified immunity.
1. Preliminary Matters
Plaintiffs argue broadly that the “right to be free from
asphyxiating, prone restraint was clearly established.”
(Doc. 79 at 8.) The Court finds that this framing of the
issue for the clearly established analysis is too broad. As
the Eighth Circuit recently reiterated, “we cannot ‘define

-App. 31aclearly established law at a high level of generality.’”
Ehlers v. City of Rapid City, 846 F.3d 1002, 1012 (8th Cir.
2017) (quoting Mullenix, 136 S. Ct. at 308); see also White
v. Pauly, 137 S. Ct. 548, 552 (2017) (finding it again
necessary to reiterate to lower courts “the longstanding
principle that ‘clearly established law’ should not be
defined ‘at a high level of generality’”) (citations omitted).
Instead, “‘[t]he dispositive question is whether the
violative nature of particular conduct is clearly
established.’” Ehlers, 846 F.3d at 1012 (quoting Mullenix,
136 S. Ct. at 308) (emphasis in original). The Supreme
Court recognized that “‘[s]uch specificity is especially
important in the Fourth Amendment context, where . . .
[i]t is sometimes difficult for an officer to determine how
the relevant legal doctrine, here excessive force, will apply
to the factual situation the officer confronts.’” Id. (quoting
Mullenix, 136 S. Ct. at 308). Plaintiffs seem to take the
position that prone restraint is never acceptable under
any circumstances, regardless of the level of force that is
used or other circumstances facing the officers, once a
suspect is handcuffed. (See, e.g., Doc. 78 ¶ 126; Doc. 79 at
12; Doc. 86 ¶ 102, 104.) However, that position, as will be
discussed below, does not square with the pre-existing
law.
Since “the clearly established law must be
‘particularized’ to the facts of the case,” White, 137 S. Ct.
at 552, in order to properly frame the issue for this Court’s
consideration and as a preliminary matter, the Court finds
it necessary and helpful to first address some of Plaintiffs’
arguments regarding the facts in this case.
a. Mr. Gilbert’s Actions of Resistance
Plaintiffs argue that Mr. Gilbert posed no threat to
anyone and claim an ill motive to the initially responding
Defendant Officers’ actions. See McCoy v. City of

-App. 32aMonticello, 342 F.3d 842, 848 (8th Cir. 2003) (officers’
underlying intent or motivation irrelevant). However, it is
undisputed that the Officers were responding to Mr.
Gilbert’s apparent attempt to hang himself by tying an
article of clothing around his cell bars and putting it
around his neck. (Doc. 78 at ¶¶ 33-47.) And it is undisputed
that Mr. Gilbert attempted to evade the officers when they
arrived at his cell. (Id. at ¶¶ 52–53.) Under these
circumstances, it was not unreasonable for the Officers to
restrain Mr. Gilbert. Police officers are authorized to
detain persons who may pose a danger to themselves. See
Lacy v. City of Bolivar, 416 F.3d 723, 727 (8th Cir. 2005)
(discussing standard under Mo. Rev. Stat. § 632.305
authorizing detention). Moreover, given Mr. Gilbert’s
apparent suicide attempt, the Officers had authority to
restrain him. See Winters v. Adams, 254 F.3d 758, 763-64
(8th Cir. 2001) (police are authorized to stop and detain
persons who appear dangerous to themselves or others as
part of their “community caretaking” function).
Additionally, even accepting Plaintiffs’ argument that Mr.
Gilbert was having a mental health crisis and posed no
threat (Doc. 79 at 6–7), the Officers would still be entitled
to qualified immunity. See, e.g., Lewis v. City of W. Palm
Beach, 561 F.3d 1288, 1292 (11th Cir. 2009) (affirming
district court’s grant of summary judgment in section 1983
case where emotionally disturbed and agitated detainee,
who was hog tied in prone position and died of asphyxia,
was not a danger to officers or forcefully attacking them,
but was deemed by court to be a safety risk merely
because of his refusal to comply with officers’ simple
instructions, his inability to remain calm, and his
continued struggling); Giannetti v. Stillwater, 216 Fed.
App’x 758–59 (10th Cir. 2007) (finding officers’ deadly
force upon prone jailed detainee reasonable when
detainee simply refused to put on jumpsuit).

-App. 33aIt also is undisputed that, throughout the encounter,
Mr. Gilbert thrashed, fought, kicked, and otherwise
struggled with the Officers. Each and every one of the
Officers, as noted above, witnessed and reacted to these
acts. For example, during the initial struggle with Officer
Stuckey, Officer DeGregorio, and Sergeant Bergmann,
and even after Mr. Gilbert was handcuffed, he tried to
stand up from a kneeling position, kicked the officers, and
reared back off of the bench. While on the bench, Mr.
Gilbert thrashed his head on the concrete bench with such
force that he suffered a gash on his forehead. While the
Officers were retrieving leg shackles, Mr. Gilbert
continued to struggle over the bench with multiple
Officers, including kicking. Indeed, Plaintiffs do not
dispute that Officer King, who had recently arrived on the
scene, had to hold Mr. Gilbert’s ankles to keep him from
kicking as leg shackles were being applied and that Officer
Wactor also witnessed Mr. Gilbert struggling with
multiple officers as he then helped apply the leg shackles.
It is undisputed that Officer Stuckey yelled for
additional help from other officers to assist with a
combative subject. When those Officers arrived, it is
undisputed that Officer Mack observed officers struggling
to control Mr. Gilbert even though he was already
handcuffed and shackled and that Officer Mack took
control of Mr. Gilbert’s arm to prevent him from thrashing
about and hitting his head. It is undisputed that, at this
point, Mr. Gilbert was moved to a prone position on the
floor, which was more secure, and that Officer Opel
secured Mr. Gilbert’s right side to ensure he would not
bang his head on the concrete. It also is undisputed that
the Officers who later helped also witnessed a struggle.
For instance, when Officer Cognasso arrived on the scene,
he witnessed Mr. Gilbert kicking his legs back and forth,
kicking the officers, and moving his body around. Officer

-App. 34aLemons similarly witnessed Mr. Gilbert struggling and
kicking, and Officer VonNida secured Mr. Gilbert so he
could not thrash about.
Defendants argue these facts demonstrate Mr. Gilbert
was resistant, combative, and non- compliant. Plaintiffs
either wholly admit these facts or at times argue—
without disputing the facts themselves—that some of
these actions were not evidence of resistance or
combativeness, but of “air hunger” or a struggle to
breathe while being restrained.12 Plaintiffs point, in part,
to the fact that Mr. Gilbert raised his chest up during the
altercation.
The Court will take as true Plaintiffs’ versions of
events and assume that Mr. Gilbert’s actions were
innocent, that he was not ignoring commands or being
violent, and that his actions were based on “air hunger.”
Even so assuming, however, the Court finds that it was
not established as a matter of law that the Officers should
have interpreted Mr. Gilbert’s actions of kicking,
thrashing, and otherwise fighting as “air hunger” instead
of resistance. Instead, as will be discussed more below,
12

See supra n.8. Plaintiffs point to non-judicial sources in support
of their air hunger argument. Plaintiffs also rely heavily on the
opinion of their retained experts, Dr. Diaz, in supporting their “air
hunger” arguments. (See Doc. 86 ¶ 27.) Dr. Diaz is a board-certified
forensic pathologist who has focused his career on, among other
things, performing post-mortem examinations and reviewing deaths
in custody. In his expert report, Dr. Diaz concluded that Mr. Gilbert’s
struggle was a direct reflection of his “air hunger,” ultimately leading
to asphyxiation. (Doc. 74-6.) Defendants sought to exclude Dr. Diaz’s
testimony. The Court, under separate order, excluded his testimony
in part, including to the extent he opined that Mr. Gilbert’s struggles
reflected such air hunger. Even if, however, the Court were to
consider all of these sources, the Court would still find the Defendant
entitled to qualified immunity based on the case law.

-App. 35acourts in this and other circuits routinely interpret such
actions as objectively reasonable evidence of resistance.
See, e.g., Boude v. City of Raymore, 855 F.3d 930, 933–34
(8th Cir. 2017) (qualified immunity does not depend on
whether the individual’s actions were “in fact” innocent
but, rather, “the key” is whether the officers reacted
reasonably to the circumstances as they appeared to the
officers) (emphasis in original); Ehlers, 846 F.3d at 1011
(8th Cir. 2017) (rejecting nonviolent misdemeanor
arrestee’s argument that he was not resisting “because he
at least appeared to be resisting”); Carpenter v. Gage, 686
F.3d 644, 650 (8th Cir. 2012) (when detainee
“characterize[d] his struggles [of neither remaining still
nor stopping moving while being handcuffed] merely as an
effort to breathe,” finding “even if [his] motive was
innocent, the [officers] reasonably could have interpreted
[his] actions as resistance and responded with an amount
of force that was reasonable to effect the arrest”); see also
Abbott v. Sangamon Cnty., 705 F.3d 706, 712 (7th Cir.
2013) (arrestee is not subdued if he “continue[s] to resist”
or “fail[s] to submit to the officer’s authority”); Bornstad
v. Honey Brook Twp., 211 F. App’x 118, 120 (3d Cir. 2007)
(in case involving prone resistance, finding the officers’
deadly force reasonable even when there was evidence
that the detainee stated he was “having trouble
breathing”); Giannetti v. Stillwater, 216 Fed. App’x 756,
760, 764 (10th Cir. 2007) (finding officers’ force reasonable
even though the restrained detainee indicated she could
not breathe and screamed that her lungs were collapsing,
rejecting the plaintiff’s argument that her physical
struggle and kicking resulted from panic when faced with
hampered breathing and possible suffocation).
Plaintiffs also point to the testimony from two inmates
who were in the holdover area at the time of this incident.
One inmate testified, “I didn’t hear him say help, but it was

-App. 36alike – basically like fighting.” (Doc. 77-3 at 13:9–14:18.) In
his initial witness statement, though, the inmate did not
indicate Mr. Gilbert said this. (Doc. 67-13 at 104.) Another
inmate, who Defendants assert was high on marijuana at
the time, testified as follows when asked if he heard what
Mr. Gilbert testified: “‘It hurt.’ I heard, ‘It hurts. Stop.’ I
heard – say ‘Ah.’ ‘Stop.’ ‘It hurt.’ ‘Oh, if – I was hurting.’ I
think it could have been the officer saying ‘Stop resisting’
or ‘Stop.’ I don’t know.” (Doc. 77-7, 20:9-21:18).13 Plaintiffs
argue that this testimony demonstrates Mr. Gilbert was
“yelling pleas for help” and pleading “It hurts. Stop.”
(Doc. 86 ¶¶ 11, 13.) Even assuming Mr. Gilbert made such
statements, this does not preclude summary judgment.
See, e.g., Bornstad, 211 F. App’x at 120 (officers’ deadly
force reasonable even when there was evidence that the
prone individual was “yelling out for help”); Giannetti, 216
Fed. App’x at 760 (force reasonable even when prone
detainee “moaned that ‘we’re killing her, that we’re
hurting her’ . . . said ‘stop, you’re hurting me’ . . . and
pleaded ‘please stop, oh, God, please.’”).
b. The Defendant Officers’ Restraint & Cause of Death
The parties also present different theories regarding
the level of force used by the Defendant Officers on
13

Plaintiffs also point to the testimony of one of the inmates who
stated in his deposition, but not in his initial witness statement, that
the Officers beat Mr. Gilbert up. This, however, was based on pure
speculation and assumption, as he could not actually see the events in
Mr. Gilbert’s cell. (Doc. 77-3 at 34:25–35:18; Doc. 86-1 at 32:24–33:4.)
Plaintiffs point to no testimony to corroborate this unsupported
testimony. Moreover, the cited cases support the conclusion that even
if an individual is in distress, summary judgment is not precluded. See,
e.g., Wagner v. Bay City, 227 F.3d 316, 321 (5th Cir. 2000) (officers
entitled to qualified immunity in case involving deadly, prone
restraint even when evidence suggested detainee was treated
roughly).

-App. 37avarious parts of Mr. Gilbert’s body. Defendants argue that
the Officers used the level of force necessary to restrain
Mr. Gilbert as he was continually resisting and did not use
asphyxiating pressure on his body. Plaintiffs argue that
the Officers “held down” Mr. Gilbert using asphyxiating
pressure, including on his back.
It is undisputed that the Defendant Officers applied
force to varying parts of Mr. Gilbert’s body. For example,
Officer Stuckey grabbed Mr. Gilbert’s left wrist while
attempting to handcuff him. Once Mr. Gilbert was
handcuffed, Officer DeGregorio grabbed Mr. Gilbert’s left
bicep and left wrist while Sergeant Bergmann grabbed his
right arm. After being kicked in the groin by Mr. Gilbert,
Officer Stuckey left and returned to doing paperwork.
Once Officer King arrived, he grabbed Mr. Gilbert’s
ankles. It was at this point that Mr. Gilbert’s legs were
shackled. Officer King then left. When Officer Mack
arrived to relieve Officer DeGregorio, Officer Mack took
control of Mr. Gilbert’s upper left arm.
It is undisputed that it was only after this point that
Mr. Gilbert was moved to a prone position. (Doc. 78 ¶ 75.)
After Mr. Gilbert was prone, Officer Opel controlled Mr.
Gilbert’s right side to protect his head from banging on
the concrete, Officer Cognasso put his knees on the back
of Mr. Gilbert’s calves, Officer Lemons placed his knee on
Mr. Gilbert’s leg, and Officer vonNida held Mr. Gilbert’s
arm or leg so he would not thrash about. They continued
to control him at his shoulders, biceps, and legs, and
Plaintiffs have proffered no evidence that the Officers
compressed Mr. Gilbert’s neck.
Plaintiffs argue, by pointing to testimony of some of
the Officers, that all of the Officers were “holding down”
Mr. Gilbert with their “weight” and that at least some of
the force was directed at Mr. Gilbert’s back. (See, e.g., Doc.

-App. 38a86 ¶¶ 14-15, 16, 33-34, 37-55.) For example, Plaintiffs point
to testimony that Officer Opal “took control of the subject
on the right side,” that Officer vonNida “kind of held [Mr.
Gilbert’s] side in place,” and that Officer Cognasso said
that, though he could not identify which Officers, there
were Officers at his upper right side and possibly a lower
or middle part of his torso. (Doc. 77-2 at 137, 167; Doc. 7711 at 20:12–19.)14
Plaintiffs also rely on the expert report of Dr. Diaz in
support of their argument, who opined that the restraint
included “the weight of the individuals being on him” while
Mr. Gilbert was prone and then stated a general
proposition that when “weight of the restrainers is applied
to the back, a cascade of events occur the most important
of which is a mechanical impairment of breathing that
leads to asphyxia.” Both parties do agree that forcible
restraint was one cause of death. They differ, however, in
assertions as to the main cause of death. In his expert
report, Dr. Diaz concluded that the main cause of death
should have been forcible restraint inducing asphyxia with
arteriosclerotic cardiovascular disease and amphetamine
as the underlying factors. (Doc. 74-6.) He opined that
pulmonary edema exhibited in the autopsy findings (fluid
on the lungs) resulted from asphyxiation. In his
deposition, he noted that the autopsy report showed
injuries, including “to the lower extremities and up to the
buttocks, and he had injuries that manifested as bleeding
into the left scapular area. That’s the left shoulder area.”
14

A review of various depositions reveals that Plaintiffs
characterize the Defendant Officers’ testimony of their actions under
the broad-brush term “holding down,” without regard to the specific
facts/testimony of the officers’ actions. Even assuming Plaintiffs’
version of the testimony, the Defendant Officers are still entitled to
summary judgment.

-App. 39a(Doc. 67-33 at 69:16–25.) However, when asked whether
he could tell where Officers exerted pressure on Mr.
Gilbert, Dr. Diaz testified that he could not tell. (Id. at 6733 at 68:22–24.)
This stands in contrast to the expert opinion of Dr.
Jane Turner, the forensic pathologist and medical
examiner who performed Mr. Gilbert’s autopsy. Dr.
Turner concluded that the manner of death was
accidental, further concluding that the cause of death was
arteriosclerotic cardiovascular disease, exacerbated by
methamphetamine and forcible restraint. Dr. Turner
disagreed with Dr. Diaz by ruling out asphyxiation in her
autopsy report, as she saw no evidence of asphyxiation,
such as petechial hemorrhages. (Doc. 67-32 at 29:18–30:3.)
Citing to literature, she concluded the large amount of
amphetamine along with the forcible restraint caused Mr.
Gilbert’s already significantly diseased heart to go into
arrhythmia, which explained the pulmonary edema. (Id.
33:13–24, 50:10–53:17.)
The Court will assume Plaintiffs’ version of facts as
true that at least some Officers used force at Mr. Gilbert’s
“sides” or torso or back or other parts of his body, and
even further that the cause of death was asphyxiation.
Still, the Court finds that summary judgment is not
precluded and that the Officers are entitled to qualified
immunity. As is discussed more below, multiple courts
have found similar force used to be objectively reasonable
even when applied upon various parts of the body,
including the back, while the detainee is restrained in a
prone position. And courts have ruled in favor of officers
even when the evidence suggested death by asphyxiation.
See, e.g., Pratt v. Harris Cnty., 822 F.3d 174, 178–79 (5th
Cir. 2016) (affirming summary judgment when force was
used upon back of prone, handcuffed individual whose legs

-App. 40awere restrained despite disagreement between experts
over cause of death); Hill v. Carroll Cnty., 587 F.3d 230,
232–37 (5th Cir. 2009) (restraining a resistant individual in
a hog-tie for thirty minutes was not unconstitutionally
excessive even when the plaintiff’s medical expert testified
specifically that the individual died from asphyxia, which
conflicted with the main cause of death noted in the
autopsy); Bornstad, 211 Fed. App’x at 121 (force used
upon resistant individual who was prone in handcuffs and
with feet bound did not violate the individual’s right to be
free from the use of excessive force even when expert
concluded main cause of death was compressional
asphyxia); Dyer v. Blankenship, No. 4:07-CV-02105-AGF,
2011 WL 1226941, at *8, 15 (E.D. Mo. Mar. 30, 2011) (force
objectively reasonable despite conflicting expert
testimony regarding whether asphyxia was a cause of
death resulting from individual in handcuffs and shackles
being restrained in the prone position by officers’ body
weight).
c. The Restraint in Relation to Mr. Gilbert’s
Breathing
Plaintiffs also argue in their responses to Defendants’
statement of material facts that the Officers “did not stop
pushing Mr. Gilbert down until after he stopped
breathing.” Defendants, on the other hand, argue the
testimony shows that Mr. Gilbert did not stop breathing
until he was re-positioned on his side, after he calmed
down and stopped resisting.
Sergeant Bergmann and Officers Cognasso, Lemons,
Mack, Opel, vonNida, and Wactor all assert that while Mr.
Gilbert was struggling against the officers on the floor, his
breathing did not appear abnormal. (See Doc. 78 ¶ 88.) For
example, Officer VonNida testified that once Mr. Gilbert
stopped actively thrashing and the Officers turned him

-App. 41aonto his side, it appeared to him that Mr. Gilbert was
holding his breath. After Mr. Gilbert was turned onto his
side, Officer vonNida observed Mr. Gilbert taking a deep
breath and then holding it in then exhaling after receiving
a sternum rub. (Doc. 67-9 at 16:9–17:13, 21:16–22:10.)
Officer Opel also testified that after Mr. Gilbert was
turned on his side, he seemed to be holding his breath and
his breathing became shallow (Doc. 67-7 at 21:16–22:21.)
Moreover, Officer Wactor testified that Mr. Gilbert’s
breathing was irregular once he was on his side. (Doc. 6710 at 24:2–10.) Officer Mack similarly testified that after
rolling Mr. Gilbert onto his side, he was calm, but his
breathing was growing increasingly erratic. (Doc. 67-6 at
20:22–21:5.) After monitoring his breathing, Officer Mack
testified that Mr. Gilbert was no longer a threat, so he
removed his handcuffs and rolled him onto his back. (Doc.
67-6 at 21:2–10.) Though Mr. Gilbert’s breathing was
increasingly erratic, Officer Mack checked for a pulse and
was able to find one. (Id. at 22:10-12.) At some point,
someone rolled Mr. Gilbert onto his back. Shortly after
Officer Mack was able to find a pulse, Mr. Gilbert stopped
breathing, causing Officer Mack to request the AED. (Id.
at 22:11–16.) (See also Doc. 78 ¶¶ 85, 88–92, 94.)
Plaintiffs admit that Officer Mack was able to find a
pulse as he so testified. (Doc. 78 ¶ 93.) They, however,
assert that the Officers “held Mr. Gilbert down and did not
get off of him” until after Mr. Gilbert stopped breathing.
(Doc. 86 ¶ 35.) In support of their argument, Plaintiffs
point to the testimony of one officer, Officer Lemons, who
testified, “When the resisting stopped, we stood up. I
noticed that he wasn't breathing” and “I can’t say what
officers were doing. All I know is when he stopped
breathing, we got up . . . [a]nd there was an officer
beginning doing CPR.” (Doc. 67-5, 15:9–16:18.) Saying the
Officers “got up” is not the same as saying they “held Mr.

-App. 42aGilbert down and did not get off of him” until he stopped
breathing.
Regardless, even accepting as true that Mr. Gilbert
remained restrained and in a prone position until he
stopped breathing, and as will be further discussed below,
the Officers would still be entitled to qualified immunity
for it was not clearly established that this violated a
constitutional right. See, e.g., Gunter v. Twp. of
Lumberton, 535 F. App’x 144, 146, 148 (3d Cir. 2013) (force
was objectively reasonable even when individual, who was
restrained in handcuffs attached to leg restraints, was left
by officers in prone position until he stopped breathing);
Giannetti, 216 Fed. App’x at 760 (force was objectively
reasonable even though officers used restrained detainee
in handcuffed, prone position until to the point where she
was unresponsive); Abbey v. City of Reno, No. 3:13-CV0347-LRH-VPC, 2015 WL 13547828, at *3 (D. Nev. Mar.
30, 2015), aff’d, 690 Fed. App’x 538, at*3 (9th Cir. 2017)
(officers’ use of force against resisting individual, who was
having a mental crisis, reasonable even though individual
stopped breathing soon after multiple officers released
their hold on individual while he was still in prone position
with feet restrained and tied to the handcuffs); Dyer, 2011
WL 1226941, at *6-7 (officers’ use of asphyxiating force
reasonable when individual did not appear to be breathing
while prone in handcuffs and leg shackles and still being
physically restrained with weight of officer on his back);
Williams v. Chambers, No. 4:07-CV-01409-ERW, 2010
WL 481299, at *8 (E.D. Mo. Feb. 5, 2010) (officers’ use of
deadly force objectively reasonable when individual
became unresponsive and ashen while still being
physically restrained in prone position by officers’ body
weight).

-App. 43a2. The Pre-Existing Law: The law did not clearly
establish in December 2015 that the use of prone
restraint in this context constituted excessive
force.
With this factual predicate in mind, the question before
the Court, then, is whether the Defendant Officers
violated clearly established law in using force on different
parts of Mr. Gilbert’s body in the manner in which they
did while Mr. Gilbert was apparently resisting and bound
and shackled in a prone position, resulting in asphyxiation.
The Court finds that excessive force cases involving the
use of prone restraint did not provide the Defendant
Officers with fair and clear warning that positioning and
restraining Mr. Gilbert in the prone position as he
continually resisted was unconstitutionally excessive as of
December 2015. Therefore, the Officers are entitled to
qualified immunity.
a. Pre-Prone Restraint
The Court will first address the Officers who used
force on Mr. Gilbert while he was kneeling across the
concrete bench inside the cell. Plaintiffs argue broadly in
their Memorandum in Opposition to this Motion that the
“right to be free from asphyxiating, prone restraint was
clearly established.” (Doc. 79 at 8.) They continue to focus
on the positioning of Mr. Gilbert, further arguing, by
pointing to case law, that “holding down a handcuffed,
prone subject is dangerous and unreasonable,” “putting
substantial or significant pressure on a suspect’s back
while that suspect is in a face-down prone position after
being subdued and/or incapacitated constitutes excessive
force,” and “putting pressure on a handcuffed individual
in the prone position amounts to excessive force.” (Doc. 79,
9-10.) As set forth above, it is undisputed that some of the
Officers only used the allegedly excessive force before Mr.

-App. 44aGilbert was in the prone position, namely Officers
Stuckey, DeGregorio, King, and Sergeant Bergmann.15
Plaintiffs do not dispute that Mr. Gilbert was moved to a
prone position on the ground after some of the Officers
had stopped using restraint and left. (Doc. 78 ¶ 75.) Officer
Stuckey left the cell after being kicked in his groin area,
which was after Mr. Gilbert was handcuffed but before his
legs were shackled. Officer DeGregorio was relieved by
Officer Mack before Mr. Gilbert was moved into a prone
position, and Officer King left to return to his regular
duties right after Mr. Gilbert’s legs were shackled.16
Importantly, all of these actions occurred while Mr.
15

Plaintiffs broadly suggest that all of the Officers, including
those Officers only present toward the beginning, were “holding
down” Mr. Gilbert’s back. Plaintiffs point specifically to the testimony
of Officer DeGregorio, who testified he “kept [his] right hand on [Mr.
Gilbert’s] back to remain control of him as he still continued to fight
and wriggle.” (Doc. 77-2 at 7.) They also point to the testimony of
Officer King, who testified he saw Sergeant Bergmann “lean over the
top of Nicholas Gilbert.” (Doc. 77-2 at 120.) Considering Mr. Gilbert’s
erratic behavior, initial struggle, and continued resistance, this
application of pressure was reasonable under the circumstances.
Williams, 2010 WL 481299, at *13 (rejecting the plaintiff’s suggestion
that the officers were laying or otherwise on top of him and instead
finding officers’ use of hands to hold down subject was reasonable
given arrestee’s “erratic behavior” and continued resistance); Dyer,
2011 WL 1226941, at *15 (straddling arrestee’s back was reasonable
considering arrestee’s initial struggle and continued resistance). The
law was not clearly established that this violated a constitutional right.
16

Although the timing is not exact, the undisputed facts
demonstrate Sergeant Bergmann, who was relieved by Officer Opel
after Mr. Gilbert was moved into a prone position, soon thereafter
stepped out of the cell and off to the side. (Doc. 67-2 at 44:14–45:25.)
Regardless, it is undisputed that when Officer King testified he saw
Sergeant Bergmann “lean over” Mr. Gilbert—to the extent there was
even any contact made—Mr. Gilbert was kneeling over the bench, not
in the prone position.

-App. 45aGilbert was not in the prone position. Instead it is
undisputed that, at this time, he was kneeling over a
bench.
To be prone means lying flat or lying face downwards
on one’s belly. Oxford English Dictionary Online,
http://www.oed.com/view/Entry/152519,
https://en.oxforddictionaries.com/definition/prone
(last
visited November 12, 2018). One of Plaintiffs’ own exhibits
includes drawings of detained individuals in the prone
position as lying completely flat. (Doc. 78-11, at 3, 5.) Mr.
Gilbert was not lying flat while kneeling over the bench.
Plaintiffs have not pointed the Court to cases that
support an argument that it violates an individual’s clearly
established right when such force (even assuming some
force was upon the back) is applied to a non-prone,
kneeling detainee. Rather, the law allows officers to hold
down a resistant subject, even using their body weight, in
order to gain control. See, e.g., Ryan v. Armstrong, 850
F.3d 419, 427–28 (affirming summary judgment when
multiple officers restrained prone, resisting detainee in
jail cell using body weight, including weight on the
detainee’s back); see also Risdal v. Nixon, 589 Fed. App’x
801, 803 (8th Cir. 2014) (concluding the force used to
handcuff and restrain inmate was objectively reasonable,
in light of his aggressive behavior, when individual was
brought “under control by taking him to the ground, and
during the struggle, [he] struck his head on a chair”). In
fact, the Eighth Circuit has upheld the use of arguably
severe force when officers are attempting to restrain a
resisting subject. See, e.g., De Boise v. Taser Int’l, Inc.,
760 F.3d 892, 897–98 (8th Cir. 2014) (“emotionally
disturbed” individual’s right to be free from multiple,
ultimately deadly, tasings when he assumed a fighting
stance as officers approached him and continued to resist

-App. 46aarrest not clearly established); Winters v. Adams, 254
F.3d 758, 761, 763–65 (8th Cir. 2001) (rejecting argument
that officers should have just “walk[ed] away” from
individual who was “acting strangely,” agitated, under the
influence of methamphetamine, and otherwise “erratically
behaving” in light of “community caretaking functions of
police officers,” and instead holding that district court
erred in finding excessive force when officer punched
individual in the eye who continued to resist); Mann v.
Yarnell, 497 F.3d 822, 824, 826 (8th Cir. 2007) (when
arrestee refused police orders to lie flat on his stomach,
twisted, and otherwise continued to resist, finding it was
reasonable to apply force against arrestee’s neck, use hold
maneuver on legs, and use a canine to bite arrestee to
bring non-compliant arrestee under control). These
Officers, therefore, are entitled to qualified immunity.17
b. Prone restraint.
Moreover, for the reasons discussed below, the result
does not change for the remaining Officers, Wactor, Mack,
Opel, Cognasso, Lemons, and VonNida. For example,
Plaintiffs point to testimony indicating that Officers
Wactor, Lemons, and Cognasso restrained Mr. Gilbert’s
legs. (Doc. 86 ¶¶ 45, 51, 55.) However, Plaintiffs do not
point to any law demonstrating that the mere act of
shackling an individual’s legs while in the prone position
violates a clearly established right. Moreover, even if the
17

Even considering these Officers’ actions in combination with the
other Officers’ actions, Ryan, 850 F.3d at 428, the Court still finds the
Officers are entitled to qualified immunity based on the additional
case law discussed infra. Moreover, even assuming that Mr. Gilbert
was “prone” while kneeling over the bench, the Court would still find
that those Officers are entitled to summary judgment, as it was not
clearly established as of December 2015 that their actions violated a
constitutional right based on the case law discussed below.

-App. 47atestimony that some Officers were restraining Mr.
Gilbert’s sides, biceps or shoulders, or were at his torso
area indicate that some Officers applied force to Mr.
Gilbert’s back while in the prone position, there is no
robust consensus of persuasive authority that the use of
force under the circumstances of this case violated a
clearly established right. Courts have found that it is
reasonable to hold down various parts of an individual’s
body, including the back and torso areas, even when the
individual is prone. See, e.g., Williams, 2010 WL 481299,
at *13 (lying on torso of handcuffed, prone individual “does
not make the force unreasonable, considering the initial
struggle and [the individual’s] continued resistance”);
Dyer, 2011 WL 1226941, at *15 (straddling back of
restrained, prone individual “does not make the force
unreasonable considering [the officers’ initial struggle
[with the individual]” and the individual’s continued active
resistance); Pratt, 822 F.3d at 178–79 (5th Cir. 2016)
(affirming summary judgment when force was used upon
back of prone, handcuffed individual whose legs were
restrained); Bussey-Morice v. Kennedy, 657 Fed. App’x
909, 911 (11th Cir. 2016) (officers entitled to qualified
immunity when they pinned, held down, or used pressurepoint techniques on various parts individual’s body,
including the upper torso); Giannetti, 216 Fed. App’x at
760 (force used against prone, handcuffed, and resisting
misdemeanor detainee was reasonable when several
officers “held her legs, arms, head, and back down” put
hands on her shoulder blades, restrained her legs in a
figure-four restraint, placed a knee toward her middle
back, placed a calf across her head, and placed a knee on
her shoulder); Wagner v. Bay City, 227 F.3d 316, 319 (5th
Cir. 2000) (force used was reasonable even when there was
testimony that an officer put his shin across a handcuffed
and prone individual’s back and that another officer

-App. 48aobserved two other officers “on top of” the restrained
individual).
The Court will now turn to a more detailed discussion
of the cases relied upon by the parties.
c. The Eighth Circuit has found the use of prone
restraint to control a non-compliant, resistant subject
to be reasonable.
The Eighth Circuit recently held—in a case with
factual similarities to this case and relied upon by
Defendants—that the simultaneous placing of body
weight by multiple officers on a restrained, prone
individual inside of a small jail cell which results in death
does not amount to excessive force. Ryan v. Armstrong,
850 F.3d 419, 427 (8th Cir. 2017). In that case, the Eighth
Circuit specifically ruled on whether “the placing of body
weight on [the detainee] while he was on the ground in a
prone position” was excessive. Id. at 427. The detainee in
that case was in jail on a minor offense, outstanding traffic
warrants, and appeared to be under the influence of drugs.
Id. at 423. He “exhibited strange behavior” and “was
behaving oddly,” including making odd “lunging” and
“animal-like” movements inside of the cell and banging on
his cell. Id. Concerned about this erratic behavior, and
after medical staff determined he needed to be removed
from his cell to be assessed, a team of officers went to his
cell to remove him. Id. Six officers, in total, were in his cell
trying to restrain the detainee. Ryan v. Armstrong, 154 F.
Supp. 3d 798, 804–05 (D. Minn. 2016). When directed to
comply, the detainee initially resisted and continued
actively resisting. Ryan, 850 F.3d at 424. Several officers
went into the cell, held the detainee down while
attempting to place his wrists and ankles in restraints, and
used a taser. Id. While their weight was still on the
detainee’s back, the officers succeeded in handcuffing him

-App. 49aand shackled his ankles with his legs crossed and bent at
the back of the knees. Id. at 424, 429. Approximately five
minutes after the officers entered the cell, the detainee
was no longer responsive. Id. at 424.
On these facts, the Eighth Circuit found the district
court did not err in granting qualified immunity to the
multiple officers on the excessive force claim. Id. at 428.
Among the facts “most important” to the Eighth Circuit’s
conclusion was that the detainee actively resisted at the
beginning of the encounter and continued to actively resist
the officers’ efforts to subdue him. Id. The court also
pointed to the fact that the encounter lasted no more than
five minutes, with body weight being used for three
minutes, and the autopsy did not show any significant
injury or trauma, although the autopsy did note that the
death occurred during restraint. Id.
The Defendant Officers in this case similarly
encountered an erratically behaving, persistently
resistant detainee and attempted to and ultimately did
restrain him inside of the confines of a jail cell by
restraining various parts of his body. Four Officers
initially attempted to restrain Mr. Gilbert before he was
put prone on the ground, and, after being relieved at
various points in time, six Officers used force to restrain
Mr. Gilbert. Ryan suggests, therefore, that the Officers’
conduct did not violate Mr. Gilbert’s Fourth Amendment
rights, even if some force was used upon Mr. Gilbert’s
back.
The parties dispute how long Mr. Gilbert was in prone
position after he was handcuffed and leg shackled. (Doc.
86 ¶¶ 31.) While it is not possible to determine from the
record exactly how long Mr. Gilbert was prone,
Defendants assert the total amount of time was less than
ten minutes, while Plaintiffs assert it was up to fifteen

-App. 50aminutes.18 (Id.) Since the Ryan court did discuss the
length of prone force as one part of its analysis, the Court,
out of an abundance of caution, will review persuasive case
law.
Since the Court finds there is no controlling Eighth
Circuit authority placing the question beyond debate, the
Court must look to whether Plaintiffs can show there is a
robust consensus of such persuasive authority. De La
Rosa, 852 F.3d at 745–46. The Court finds that a review of
persuasive case law cited by both parties demonstrates a
lack of consensus.
d. Multiple courts within this circuit have found that
an officer’s restraint of a handcuffed or shackled
individual in the prone position is reasonable under
facts similar to this case.
Two cases decided in this district are constructive. In
Williams v. Chambers, cited by Defendants in its briefing
on the clearly established argument, the court granted
summary judgment in the defendant officers’ favor when
deadly prone force was used. Williams v. Chambers, No.
4:07-CV-01409-ERW, 2010 WL 481299, at *16 (E.D. Mo.
Feb. 5, 2010). In that case, the officers encountered an
individual along a highway who was under the influence of
cocaine and exhibiting agitated, erratic behavior. Id. at
*2–3, 9. The officers attempted to restrain the individual
by handcuffing him, but the individual repeatedly resisted
and failed to comply, moving uncontrollably and flailing
around, prompting the officers to use pepper spray. Id. at
*4–5. Once the subject was prone on the pavement, the
18

Defendants’ timeline of events is supported by the undisputed
timing of the calls to EMS and other undisputed facts. Regardless,
the Court accepts Plaintiffs’ argument that Mr. Gilbert was
restrained prone for fifteen minutes for purposes of ruling on this
Motion.

-App. 51aofficers used their body weight to restrain his feet, lower
extremities and upper body, “holding him down with their
hands,” rendering the officers “exhausted.” Id. at *5–6.
Once the officers succeeded in handcuffing him, the
officers restrained the individual in a variety of ways while
he was lying prone, including using their body weight to
hold down his feet, knees, and upper body and “chest area
of his back.” Id. at *6. The individual ceased struggling
and stopped resisting at one point, but he resumed
resisting, prompting the officers to continue to restrain his
upper body area, legs, and ankles. Id. at *6–8. The officers
kept him the individual in handcuffs even after he
subsequently stopped moving while he was lying prone.
Id. at *8. While the exact timeline is not clear, dispatch
calls suggest he was in the prone position for
approximately just under fifteen minutes. See id. at *5, 8.
After turning him over, the officers noticed the subject
was non-responsive and having trouble breathing. Id. The
individual ultimately passed away soon after these events.
Id. at *9. Even though there was evidence, conflicting at
times, that force was applied directly to the individual’s
back, the court nonetheless held that “this evidence does
not make the force used unreasonable, considering the
struggle and continued resistance.” Id. at *13. Citing to
cases from other circuits involving prone restraint and
asphyxia where those courts found the force used to be
reasonable, the court held that, under these
circumstances, the force used was objectively reasonable.
Id. at *14.19
In Dyer v. Blankenship, another court in this district
similarly granted summary judgment in the defendant
officers’ favor when deadly prone force was used. Dyer v.
19

Some of the cases relied on by the Williams court are the same
cases relied on by Defendants.

-App. 52aBlankenship, No. 4:07-CV-02105-AGF, 2011 WL 1226941,
at *1 (E.D. Mo. Mar. 30, 2011). In attempting to take a
resisting individual into custody, the officers placed him in
a prone position while he was first handcuffed and then
also leg shackled. Id. at *4–5. The court noted there was
conflicting testimony regarding whether one officer was
lying over the detainee’s back while handcuffed, and the
court also noted there was conflicting testimony whether
the detainee ceased struggling once the leg shackles were
applied. Id. at *5, 6. It was undisputed that, at one point,
an officer did place his knee in the small of the detainee’s
back after he was handcuffed and shackled. Id. at *6. After
the suspect was calm, the officers stood up but noticed the
detainee, who was still prone in handcuffs and leg
shackles, did not look well. Id. at *7. By the time the
officers turned him over, he did not appear to be breathing
and had only a weak pulse. Id. at *8. The autopsy listed
the cause of death as an accident due to excited delirium
associated with cocaine and methamphetamine. Id. at *8.
Plaintiff, however, disputed the results, as the medical
examiner also reported “petechial hemorrhages of the
lungs,” which Plaintiffs alleged was a sign of asphyxia. Id.
In so opposing summary judgment by challenging the
cause of death, Plaintiffs relied on their expert’s
conclusion. No. 4:07-CV-02105-AGF (E.D. Mo. Oct. 11,
2011), ECF No. 142.20 Despite the expert opinion and
autopsy evidence suggesting asphyxia was the cause of
death, the court found the force was objectively
20

The defendants moved to exclude that testimony, arguing the
expert’s opinions were unsupported by scientific study, speculative,
and inadmissible. No. 4:07-CV-02105-AGF (E.D. Mo. July 12, 2010),
ECF No. 105. The court summarily denied that motion, and, thus,
considered that opinion while ruling on the motion for summary
judgment. No. 4:07-CV-02105-AGF (E.D. Mo. Aug. 27, 2010), ECF
No. 131.

-App. 53areasonable, considering in part that the detainee
continually resisted. Dyer, 2011 WL 1226941, at *15. Even
though the detainee stopped struggling while handcuffed
and shackled in the prone position, the court found this
evidence did not make the force unreasonable, considering
the short amount of time between when the detainee
stopped struggling and when he thereafter stopped
breathing. Id.
Williams and Dyer demonstrate that the Defendant
Officers in this case did not violate clearly established law
by using force on Mr. Gilbert in the prone position.
Likewise, here, the Officers encountered an erratically
behaving individual with drugs in his system who had
apparently attempted suicide, and each of the Officers was
met with resistance while attempting to restrain him. Like
in those cases, the Officers applied force to various parts
of the body of an individual who was in handcuffs and leg
shackles or both. As in those cases, the Defendant
Officers’ use of force was reasonable given Mr. Gilbert’s
struggle and continued resistance both before and after he
was on the ground in the prone position. See also Mayard
v. Hopwood, 105 F.3d 1226, 1227–28 (8th Cir. 1997)
(placing prone detainee, who was kicking and otherwise
struggling with officers, in hobble restraint was
objectively reasonable “particularly . . . in light of [the
detainee’s] resistance”).
Moreover, even assuming that Officers Wactor, Mack,
Opel, Cognasso, Lemons, and vonNida did not stop using
force until after they realized Mr. Gilbert had stopped
breathing, the Officers’ testimony demonstrates that any
time period between when Mr. Gilbert stopped struggling
and thereafter stopped breathing was short. (See, e.g.,
Doc. 67-7 at 21:16–23:1; Doc. 67-9 at 18:3–12, 23:11–17.)
Plaintiffs put forth no evidence to controvert that timeline.

-App. 54aSee Mann v. Yarnell, 497 F.3d 822, 827 (8th Cir. 2007)
(when non-movants rely on “[m]ere allegations,
unsupported by specific facts or evidence beyond the
nonmoving party’s own conclusions, . . . [they cannot]
withstand a motion for summary judgment.”) (internal
citations and quotations omitted). In this context,
“[e]vidence that [an individual with handcuffs and leg
shackles in the prone position] stopped struggling,
therefore, does not make the force unreasonable
considering the short amount of time between when [the
individual] stopped struggling and when he thereafter
stopped breathing.” Dyer, 2011 WL 1226941, at *15.
e. Other Circuit Courts of Appeal have similarly found
the use of asphyxiating prone restraint to control a
resistant, non-compliant subject to be reasonable,
even when force is applied to various parts of the body,
including the back.
In addition to in-circuit case law, case law from other
circuits, cited by Defendants in their clearly established
argument, supports the conclusion that the Officer
Defendants did not violate clearly established law.
— The Tenth Circuit held that applying force upon the
legs, arms, hands, and back of a handcuffed, misdemeanor
detainee while in the prone position for nearly twenty
minutes, resulting in death, was not unreasonable.
Giannetti v. Stillwater, 216 Fed. App’x 756, 758, 759 n.3,
760 (10th Cir. 2007). The mentally ill detainee was in jail
and being booked for a minor offense, when she refused to
put on a jumpsuit as requested. Id. at 758–59. Due to her
continued resistance, the officers handcuffed her and put
her facedown in the prone position to try and remove her
pantyhose before putting on the jumpsuit. Id. at 759–60.
“During the nearly twenty minutes [the detainee] lay
prone,” multiple officers struggled inside a haz-mat room

-App. 55ato put on her jumpsuit. Id. “During the majority of that
time,” the detainee struggled with the officers by kicking
and otherwise moving her body around. Id. And during
this time, the officers “held her legs, arms, head, and back
down in an effort to keep her from moving,” put hands on
her shoulder blades, restrained her legs in a figure-four
restraint, placed a knee toward her middle back, placed a
calf across her head, and placed a knee on her right
shoulder. Id. at 760. Two officers testified she expressed
“at least twice during the struggle that she was having
difficulty breathing by ‘scream[ing] that her ‘lungs were
collapsing’ and at least once indicated that ‘she couldn’t
breathe.’” Id. (alterations in original) Two officers also
testified that she “moaned that ‘we’re killing her, that
we’re hurting her’ . . . said ‘stop, you’re hurting me’ . . . and
pleaded ‘please stop, oh, God, please.’” Id. After the
officers were partially successful in putting on the
jumpsuit, they asked the detainee to sit up, but she did not
respond. Id. She remained handcuffed and partially on her
stomach. Id. After a short amount of time, she did not
appear to be breathing and her lips were “bluish,” and she
was turned on her back. Id. At that point, the officers
began CPR and called for an ambulance. Id. The medical
examiner’s autopsy listed asphyxia as one cause of death.
Id. at 761.
On these facts, the court found the officers’ use of force
to be reasonable, despite the plaintiff’s arguments that her
struggling and kicking resulting from her fear of
suffocation and that the officers should have taken her
mental illness and aberrant behavior into account. Id. at
764. The court reasoned that the detainee continued to
struggle and kick, concluding “that the officer’s continued
use of force, although perhaps not the least intrusive
choice they could have made, was not unreasonable in
response to her escalating opposition.” Id. at 765–66.

-App. 56a— The Third Circuit upheld the use of asphyxiating
prone restraint involving a resistant, non-compliant
arrestee. Bornstad v. Honeybrook Twp., 211 Fed. App’x
118 (3d Cir. 2007). In attempting to subdue the arrestee,
an officer pressed a knee into his chest. Id. at 120. At one
point, a witness heard the arrestee yell out “for help” and
state he was “having trouble breathing.” Id. When backup
officers arrived, the several officers turned the arrestee
over onto his stomach to eventually handcuff him behind
his back and tie his feet together. Id. at 121. When they
attempted to move him to the police vehicle, the officers
noticed he was not breathing. Id. The officers’ efforts to
revive the individual were unsuccessful, and the individual
was pronounced dead at the hospital. Id. The total length
of the encounter was “substantial,” lasting for over two
hours. Id. at 123. The autopsy reports and death
certificate listed asphyxia as the cause of death.21 Id. at
121. Despite the fact that there were discrepancies
between the officers’ accounts and the medical experts’
testimony and findings, the district court found that, even
assuming the officers’ actions caused asphyxia, the
officers acted reasonably. Id. at 122. The Third Circuit
affirmed summary judgment, pointing to the “resistance
that [the individual] mounted throughout” the encounter,
and distinguishing cases where the plaintiffs became
compliant after they had been handcuffed and shackled.
Id. at 123–25.

21

In Bornstad, the district court refused to exclude testimony
from the plaintiff’s forensic expert that the proper cause of death was
asphyxia. Bornstad v. Honey Brook Twp., No. C.A.03-CV- 3822, 2005
WL 2212359, at *10–11 (E.D. Pa. Sept. 9, 2005). The district court
nonetheless found the officers’ use of force was objectively
reasonable, id. at *13-19, and the appellate court affirmed.

-App. 57a— The Third Circuit also upheld prone resistance in
another case, finding that attaching a resistant suspect’s
leg restraints to his handcuffs was reasonable because the
suspect “repeatedly kicked the officers after his hands
were [handcuffed]” and then “continued to kick at the
officers even after his legs were tied together.” Gunter v.
Twp. of Lumberton, 535 F. App’x 144, 146, 148 (3d Cir.
2013). After being restrained, the individual was “placed
face down on the ground” and remained prone until
“officers observed that [he] was not breathing.” Id. at 146.
In finding the officers’ actions objectively reasonable,
despite the fact that the parties disputed whether he was
restrained in the prone position for 10 to 15 minutes or
less,22 the court focused on the fact that the individual
“repeatedly kicked” and otherwise resisted even after his
hands and legs were restrained. Id. at 148.
— The Fifth Circuit Court of Appeals affirmed
summary judgment when multiple officers placed a
sporadically resisting and handcuffed arrestee in the
prone position, restrained his legs, placed a knee on his
back to maintain compliance, and used a hobble restraint
(handcuffs that attach to an arrestee’s ankles) to “hog tie”
him,23 resulting in his death. Pratt v. Harris Cnty., 822
22

Plaintiffs argued that officers restrained the suspect in the
prone position with his cuffed hands attached to his leg restraints for
10 to 15 minutes. Brief for Appellant, Gunter v. Twp. of Lumberton,
2011 WL 9820200, at *11 (3rd Cir. 2011) (No. 12-3146). The district
court found the encounter “rendered the officers physically
exhausted.” Gunter v. Twp. Of Lumberton, No. CIV. 07-4839
NLH/KMW, 2012 WL 2522883, at *8 (D.N.J. June 29, 2012).
23

“Hog-tying” is a controversial restraint and is considered to be
more extreme than just placing someone in handcuffs and shackling
their legs. See, e.g., Cruz v. City of Laramie, 239 F.3d 1183, 1188–89
(10th Cir. 2001) (collecting cases describing evidence of the danger of
the hog-tie restraint).

-App. 58aF.3d 174, 178–79 (5th Cir. 2016). The individual was placed
under arrest after the officers witnessed him erratically
behaving after a minor single-vehicle traffic accident. Id.
at 178. The officers initially had to use force and multiple
tasings to try and gain control of the individual, who was
kicking and otherwise resisting at times after being
handcuffed but before he was in the prone position. Id.
Once he was in the prone position, with his hands cuffed
and legs restrained by the force of the officers, force was
applied to his back. Id. While still in the prone position, the
officers were able to place a hobble restraint on his legs,
and he stopped resisting. Id. at 78–89. After the individual
stopped resisting, the officers then “hog tied” him by
connecting his handcuffs to the hobble restraint. Id. at
179. Even though he had ceased resisting, he was
maintained in the hog tie in the prone position until EMS
arrived, at which point he did not have a pulse, ceased
breathing, and ultimately passed away. Id. Plaintiff’s and
defendants’ experts disagreed as to the cause of death,
with plaintiff’s expert citing to injuries noted in the
autopsy report and concluding the death was
multifactorial. Id. On these facts, the court found the
district court did not err in granting qualified immunity,
reasoning the force was not excessive because the
individual resisted, the officers were unaware specifically
that he was under the influence of a substance, and he was
restrained for a brief period.24 Id. at 184.
— That was not the first time the Fifth Circuit upheld
the use of ultimately deadly force upon a restrained, prone
individual. In Wagner v. Bay City, the court held that the
24

The appellate court does not note the length of time, but the
entire encounter appears to have lasted for about ten minutes. See
Pratt v. Harris Cnty., No. CV-H-12-1770, 2015 WL 224945, at *1–3
(S.D. Tex. Jan. 15, 2015).

-App. 59aofficers’ actions were objectively reasonable even though
arrestee, who had resisted arrest, stopped breathing and
died after officers sprayed him with pepper spray, placed
him face down on pavement to handcuff him, placed a shin
across his back to hold him down, were positioned “on top
of him,” and placed him on his stomach in patrol car to
transport him to jail even after he had stopped struggling.
227 F.3d 316, 318–19 (5th Cir. 2000). The court
acknowledged that there were “inconsistenc[ies] in the
sequence of events,” “some question as to how long the
defendants held [the individual] on the ground,” “how
roughly they treated him,” and whether the individual was
“struggling” before they handcuffed him in the prone
position. Id. at 321. Nevertheless, the court reversed the
district court’s denial of summary judgment based on
qualified immunity, declining to second-guess the officers’
split-second decisions and finding the officers’ actions
reasonable in the context of the situation that the detainee
created. See id. at 321, 324.
— The Eleventh Circuit also found ultimately deadly
force did not violate a clearly established right when
multiple officers used their body weight to subdue a prone
and ultimately handcuffed individual who was having a
mental crisis and resisting. In that case, officers were
called to a hospital to assist in subduing a man who was
suffering from a mental health crisis. Bussey-Morice v.
Gomez, 587 Fed. App’x 621, 622 (11th Cir. 2014) (BusseyMorice I). When four officers initially arrived on the
scene, the individual assumed what the officers
interpreted as a threatening stance and refused to comply
with their orders. See id. at 623. After multiple tasings
were unsuccessful and a fifth officer arrived on the scene,
the officers went “hands on,” restraining his legs and
attempting to “pin [him] down” as he fought and struggled
against the officers. Id. at 623–24. After a prolonged

-App. 60astruggle, six officers were able to get him handcuffed. Id.
at 624. Once handcuffed and in the prone position, the
individual continued to struggle against multiple officers
by kicking and preventing them from gaining control over
his body. Bussey-Morice v. Kennedy, 657 Fed. App’x 909,
911 (11th Cir. 2016) (Bussey-Morice II). While in the
prone position and handcuffed, another officer “joined the
other officers,” grabbed the individual’s feet, “mov[ed] up
[the individual’s] body in order to gain control of his upper
torso,” used a knee to hold his head, used additional
pressure-point techniques to gain compliance, and placed
a pillowcase over his head. See id. The officers then placed
him on a gurney in a four- point restraint, and it was later
discovered that he was not breathing. Bussey-Morice I,
587 Fed. App’x at 625. Because the officer’s actions were
“measured as to the degree of resistance,” the court could
not “find, that as a matter of obvious clarity,” the officer
violated the individual’s Fourth Amendment rights; thus,
the officer’s conduct did not violate a clearly established
right and were entitled to qualified immunity. BusseyMorice II, 657 Fed. App’x at 914–15; Bussey-Morice I, 587
Fed. App’x at 629 (officers entitled to summary judgment
for tasing).
The Court finds that Mr. Gilbert’s case has many
similarities to the cited cases. Like in these cases, the
Defendant Officers were met with a resisting subject and
each Officer used force, as described previously, on
different parts of Mr. Gilbert’s body after he was in
handcuffs and leg shackles in the prone position. Even
assuming that Mr. Gilbert was having a mental health
crisis, that he was in the prone position for fifteen minutes,
that Officers used force upon his back at times in addition
to his extremities, that Mr. Gilbert did not stop breathing
until they “got up,” and that he died from asphyxiation, in
finding the force used reasonable under these types of

-App. 61acircumstances, these cases establish that none of the
Officers violated a clearly established right.
While all of these cases, combined, inform the Court’s
decision, the Court finds Giannetti to be particularly
instructive, as it is strikingly similar to this case in many
respects. Both cases involve prone restraint used against
individuals exhibiting mental disturbances after being
booked for a minor offense. In Giannetti, the officers were
merely trying to get the jailed detainee to put on a
jumpsuit; here it is undisputed that the Officers were
responding to Mr. Gilbert’s attempted suicide. In both
cases, multiple officers were involved in restraining the
detainees inside of a space within a secured facility. In
both cases, the detainees were restrained in the prone
position while handcuffed and their feet were restrained
for a period lasting approximately the same time. In both
cases, the detainees fought the restraint. And, accepting
Plaintiffs’ version of facts as true, in both cases multiple
officers used force upon various parts of the jailed
detainees’ bodies including the back until the individual
stopped resisting and breathing, ultimately dying from
asphyxiation. Like in Giannetti, even accepting that the
Defendant Officers’ use of force was not the “least
intrusive choice they could have made,” the Officers did
not violate a right that was clearly established. In other
words, even construing the facts in the light most
favorable to Plaintiffs, the Officers are entitled to qualified
immunity.
f. Plaintiffs’ non-controlling case law involving
asphyxiating, prone restraint demonstrates a lack of
a robust consensus in the case law.
Plaintiffs cite to no controlling case law in support of
their arguments on the clearly established prong. They do
not cite any case law establishing that use of force upon a

-App. 62anon- prone/kneeling individual violates a clearly
established right. Plaintiffs rely on several cases where
other Courts of Appeal have found the use of prone force
to be unreasonable. Plaintiffs argue that given this case
law, any reasonable officer should have known that the
force was unnecessary and extremely dangerous. (Doc. 79
at 11.)25 Though those cases involve similar facts, the
Court finds that the facts of the cases are not sufficiently
aligned and are, therefore, distinguishable. See De Boise
v. Taser Int’l, Inc., 760 F.3d 892, 897 (8th Cir. 2014)
(holding the law was not clearly established when
illustrative cases are not sufficiently aligned). Thus, these
cases do not “squarely govern” the specific facts at issue
in this case.

25

In addition to the case law, Plaintiffs point to other nondecisional authority in their arguments. (See, e.g., Doc. 79 at 11.) Even
assuming that courts in the Eighth Circuit would entertain such
authority in their analysis, the Court finds that such non-decisional
sources would not alter the outcome of this case. As the Court
discusses, the case law is split over whether the type of force used in
this case violated a clearly established right. As such, the issue is not
beyond debate. Moreover, while Plaintiffs cite to articles suggesting
that prone restraint is unacceptable, Defendants have, for example,
proffered an article published in the Forensic Research &
Criminology International Journal entitled “A Prospective Analysis
of the Outcomes of Violent Prone Restraint Incidents in Policing.”
(Doc. 86-5.) In that article, the researchers conclude that prone
restraint is safe and the preferred position for combative individuals,
that the prone position does not necessarily create an adverse medical
outcome, and that the likelihood of any injury is correlated with the
degree of resistance and behaviors of the subject. (See id.) Even if the
Court were to take judicial notice of Plaintiffs’ and Defendants’
authority, this would lend further support to the Court’s conclusion
that there is no robust consensus, as the non-decisional authority is
split, too.

-App. 63aFor example, Plaintiffs cite Weigel v. Broad, 544 F.3d
1143, 1147 (10th Cir. 2008). In addition to not being
binding precedent on this Court, the Tenth Circuit case is
also distinguishable from the present case. In Weigel, an
opinion by a divided court, the officers encountered an
emotionally disturbed individual who resisted arrest. Id.
at 1148. Once handcuffed, the individual continued to
struggle, so the officers “[laid] across the back of [the
arrestee’s] legs,” applied pressure to his upper body,
including his neck and shoulders, by using hands and
knees, and an officer straddled the arrestee’s upper thighs
and buttocks and held his hands in place while a bystander
tried to apply leg bindings. Id. Once the leg bindings were
applied, officers remained positioned on the arrestee’s
upper torso and on top of his legs until the individual went
into cardiac arrest and ultimately passed away. Id. at
1148–49. On these facts, the court found that the officers
used an unreasonable amount of force and violated clearly
established law. Id. at 1152–54. However, an officer
admitted that the arrestee was “subdued” and “just quit
struggling,” but force was continued to be applied upon his
body for several minutes. Id. at 1149, 1154. Thus, the court
noted that the pressure was applied to the decedent “for a
significant period after it was clear that the pressure was
unnecessary to restrain him.” Id. at 1152. In this case, the
Court has not found that the Defendant Officers continued
to apply pressure to Mr. Gilbert after it was no longer
necessary as he was not subdued or and did not quit
struggling; rather, the evidence of Mr. Gilbert’s continued
resistance suggests that it was indeed necessary. See, e.g.,
Williams, 2010 WL 481299, at *14 (distinguishing Weigel
on similar grounds).
Plaintiffs also cite Champion v. Outlook Nashville,
Inc., 380 F.3d 893 (6th Cir. 2004), in support of their
argument, in which the court found the officers’ conduct

-App. 64awas unreasonable and violated clearly established law
after a jury verdict for plaintiff. However, in Champion,
the officer conduct that the Sixth Circuit upheld was
specifically the use of pepper spray after the arrestee was
handcuffed, hobbled, and under control. Id. at 897–98. The
arrestee was autistic, nonresponsive and unable to speak.
Id. at 896. Seventeen minutes elapsed between the
application of the hobble device on the arrestee and the
arrival of EMS. Id. at 897. Eyewitness testimony from five
individuals indicated that during this time, the officers
“were laying on him, like how wrestlers do in the ring”
with “all their strength,” “on top of him,” “laying on top of
him,” had a “knee in the middle of his back,” and continued
to use pepper spray while the individual was prone and
“subdued on the ground and had stopped resisting.” Id. at
898. And during this time, the arrestee vomited multiple
times. Id. Every eyewitness stated “they did not see [the
arrestee] struggle during this time.” Id. The court
recognized that it is clearly established “that putting
substantial or significant pressure on a suspect's back
while that suspect is in a face- down prone position after
being subdued and/or incapacitated constitutes excessive
force.” Id. at 903 (emphasis added). In this case, on the
other hand, Mr. Gilbert was not subdued and had not
ceased struggling. Instead, Mr. Gilbert continued to kick,
thrash, and otherwise move after he was handcuffed, while
Defendants were applying the leg shackles, and
thereafter. See, e.g., Bornstad, 211 Fed. App’x at 125
(distinguishing Champion because arrestee was
resistant); Dyer, 2011 WL 1226941, at *16 (distinguishing
Champion because individual continued to resist arrest).
Another case cited by Plaintiffs, Drummond v. City of
Anaheim, 343 F.3d 1052 (9th Cir. 2003), is similarly
distinguishable. In that case, the officers encountered a
mentally ill individual who they attempted to take into

-App. 65acustody so he could be brought to a mental facility. Id. at
1053. While the arrestee was prone and handcuffed, an
officer put his knee into the arrestee’s back and placed the
weight of his body on him. Id. at 1054. Another officer
similarly placed the weight of his body on the arrestee,
including placing a knee on his neck. Id. Two eyewitnesses
verified that the arrestee repeatedly told the officers he
could not breathe and that they were choking him and that
the officers were laughing during the course of events. Id.
at 1054–55. The arrestee was prone and handcuffed for
twenty minutes. Id. at 1055. The court held that immunity
was not available because “kneeling on the back and neck
of a compliant detainee, and pressing the weight of two
officers’ bodies on him even after he complained that he
was choking and in need of air violates clearly established
law.” Id. at 1062. In its analysis, the court noted that once
on the ground, prone and handcuffed, [the arrestee] did
not resist the arresting officers.” Id. at 1059, 1061. Despite
“offering no resistance,” the court reasoned, the officers
persisted despite his repeated cries for air and also stood
around and laughed at him. Id. at 1062. Given Mr. Gilbert’s
continued resistance throughout the incident, this is
unlike Drummond, where the plaintiff became compliant
after being handcuffed and shackled. Here, for example,
Mr. Gilbert continued to thrash his legs back and forth and
otherwise move his body around even after he was
handcuffed and his legs were shackled. As the Court
discussed above, all of the Defendant Officers, including
Wactor, Mack, Opel, Cognasso, Lemons, and VonNida,
reasonably interpreted this as resistance as a matter of
law. See, e.g., Abbey v. City of Reno, 690 Fed. App’x 538,
539 (9th Cir. 2017) (finding Drummond distinguishable
because the detainee offered no resistance after being
handcuffed, but detainee in Abbey “actively assisted
arrest before and during the altercation, including after

-App. 66abeing handcuffed”); Bornstad, 211 Fed. App’x at 125
(reasoning, “[g]iven the resistance that [the detainee]
mounted throughout his arrest, it is impossible to
compare, as the appellant wishes, the circumstances of his
arrest with those in Drummond or Champion, in which
the plaintiffs became compliant after they had been
handcuffed and shackled. The officers were not required
to treat the still-resisting [detainee] in the same manner
as was required of the officers in either Drummond or
Champion.”); Giannetti, 216 Fed. App’x at 766 (reasoning
that “[u]nlike Drummond, where [the arrestee] no longer
resisted after the officers placed him in a prone position,
[the detainee in this case] actively resisted, kicked, and
thrashed at the officers.”).
The Court also finds Simpson v. Hines, 903 F.2d 400
(5th Cir. 1990), distinguishable on its facts. In that case,
ten officers simultaneously entered a jail cell and
collectively used force against a misdemeanant detainee
refused to surrender contraband or his personal effects.
See id. at 401. The court found the force used to be
excessive and malicious based on the following facts: the
officers strategized before entering the cell; an officer put
his arm around the detainee’s neck; and officer nicknamed
“Beef” due to his large size sat on the detainee’s chest;
once the detainee was suspect and prone, a tape recording
demonstrated the detainee submitted to their actions,
begged for help and screamed, and laid silent and
motionless for several minutes before they exited the cell;
and the officers left him in that position and motionless
until the next morning, when he was discovered dead from
asphyxia. Id. at 402. The force used in Mr. Gilbert’s case
is not comparable to this situation, as there was no
evidence in Simpson that the detainee resisted once he
was in handcuffs and leg shackles, and he laid silent and
motionless for several minutes before being left overnight.

-App. 67aCompare Pratt, 822 F.3d at 184, and Wagner, 227 F.3d at
324 (noting later-decided Fifth Circuit cases finding prone
force reasonable).
Plaintiffs place a lot of emphasis on Mr. Gilbert being
restrained in the prone position for fifteen minutes after
being handcuffed and shackled, even citing to that in the
first sentence of their brief in opposition to this Motion
and repeatedly emphasizing it throughout their response.
(See Doc. 79.) However, a review of the case law does not
establish a bright-line rule regarding the length of time a
resistant individual can be constitutionally maintained in
a prone position, even when in handcuffs and leg shackles.
See, e.g., Pratt, 822 F.3d at 183 (citing Hill v. Carroll
Cnty., 587 F.3d 230, 232–37 (5th Cir. 2009) (restraining a
resistant individual in a hog-tie for thirty minutes was not
unconstitutionally excessive because the plaintiff could
not establish that the “deputies had no objective basis not
to use four-point restraints” in light of her resistance and
even though medical expert testified specifically that the
individual died from asphyxia); Giannetti, 216 Fed. App’x.
at 759 n.3 (use of ultimately deadly force upon the legs,
arms, hands, and back of a handcuffed misdemeanor
detainee while in the prone position for nearly twenty
minutes was reasonable). Therefore, even accepting
Plaintiffs’ version of events by assuming Mr. Gilbert was
restrained in a prone position for up to fifteen minutes, the
Court still finds that the Defendant Officers’ conduct did
not violate a clearly established right for the reasons
already discussed and the additional reasons discussed
below.
Plaintiffs also assert that Defendants’ argument fails
because “Defendants fail to cite to a single case where
force was found to be objectively reasonable when applied
after an individual was restrained in the prone position in

-App. 68aa secure facility.” (Doc. 79 at 13.) The Court rejects the
notion that Defendants must cite to a case with that level
of specificity to have qualified immunity. See, e.g.,
Anderson v. Creighton, 483 U.S. 635, 640 (1987) (requiring
this “particularized” showing “is not to say that an official
action is protected by qualified immunity unless the very
action in question has previously been held unlawful”)
(internal citations omitted); De La Rosa v. White, 852 F.3d
740, 745 (8th Cir. 2017) (“We do not require a case directly
on point”) (internal quotations and citations omitted).
Moreover, the burden is on Plaintiffs, not Defendants, to
demonstrate the law was clearly established. See, e.g.,
Smith v. City of Minneapolis, 754 F.3d 541, 546 (8th Cir.
2014). Regardless, in Defendants’ reply, they did cite to a
case where a court found the force objectively reasonable
in such an instance— inside of a secure facility; with
officers applying force upon the legs, arms, hands, and
back of a handcuffed, misdemeanor detainee lying prone
for even longer than in this case; and resulting in an
unfortunate death. See, e.g., Giannetti, 216 Fed. App’x at
756, 758, 759 n.3, 760.
Moreover, even if there is an argument to be made that
the cases cited by Plaintiffs are not fully distinguishable
because they share some factual similarities to this case,
the Court would still find the Defendant Officers are
entitled to qualified immunity, as Mr. Gilbert’s case also
shares factual similarities with the cases cited by
Defendants. Plaintiffs argue: “Everyone agrees the prone
position is OK until the suspect is handcuffed. It’s what
happens after the cuffs are applied that matters . . . ‘As
soon as the suspect is handcuffed, get him off his
stomach.’” (Doc. 79 at 12.) Yet the case law does not
support that argument. Instead, courts are not in
agreement that a suspect must be moved out of the prone
position as soon as he is handcuffed.

-App. 69aConsidering there is no controlling authority in the
Eighth Circuit and the circuits are split among and within
themselves on cases with similar facts involving the use of
force upon a prone individual, the Court finds there is no
“robust consensus” such that “every reasonable officer
would have understood that what he is doing violates that
right” or such that the question is “beyond debate.” See,
e.g., Wilson v. Layne, 526 U.S. 603, 618 (1999) (recognizing
federal circuit split and noting “[i]f judges thus disagree
on a constitutional question, it is unfair to subject police to
money damages for picking the losing side of the
controversy” when finding law was not clearly
established); De La Rosa, 852 F.3d at 740 (reiterating
there must be a robust consensus); Burton, 370 F.3d at
730 (law not clearly established when no controlling
Eighth Circuit authority and circuits are split); Murphy v.
Dowd, 975 F.2d 435, 437 (8th Cir. 1992) (same). Plaintiffs
have not cited law clearly establishing a constitutional
right to be free from the type of force used by Officers
Stuckey, DeGregorio, King, and Sergeant Bergmann
while Mr. Gilbert was in a kneeling position. Moreover,
there is no controlling or robust consensus of persuasive
authority demonstrating the force used by Officers
Wactor, Mack, Opel, Cognasso, Lemons, and VonNida
while Mr. Gilbert was in the prone position violated clearly
established law.
While the law on the use of force in situations
involving prone restrain may ultimately move more
toward the direction Plaintiffs suggest, the law as of
December 8, 2015, was not clearly established. See, e.g.,
De Boise, 760 F.3d 892, 897 (finding law not clearly
established when case law was “still developing”). Indeed,
some of these cases relied upon by Defendants and
factually similar to this case were decided after December
8, 2015, lending further support to the notion that the

-App. 70acontours of prone restraint were not clearly established as
of December 2015. The Court recognizes that another
district court within the Eighth Circuit recently denied
the officers’ request for qualified immunity on summary
judgment in a case where ultimately deadly force was used
upon a restrained individual in the prone position. Hanson
for Layton v. Best, No. CV 15-4578 (MJD/SER), 2017 WL
5891697, at *1 (D. Minn. Nov. 28, 2017), appeal filed, No.
17-3821 (8th Cir. Dec. 29 2017).26 First, that case was
decided after December 8, 2015, so for purposes of the
clearly established analysis, it was not part of the “existing
precedent” available at the time the Defendant Officers
acted. al-Kidd, 563 U.S. at 741.27 Moreover, the case is
factually distinguishable, as officers restrained an
arrestee who the court found was only sporadically
resisting in the prone position with two sets of handcuffs
and a hobble restraint around his ankles for
approximately forty minutes. Hanson, 2017 WL 5891697
at *2, 6. In deciding Hanson, the Eighth Circuit might
very well provide additional clarification beyond Ryan on
the acceptable use of force upon a prone individual.
However, taking into account the totality of the
circumstances in Mr. Gilbert’s case and the totality of the
law as it existed in December 2015—and viewing the
Defendant Officers’ actions singularly and in
26

Oral arguments in that case were heard on November 14, 2018.
Defendants have appealed the portion of the court’s order denying
them qualified immunity based on whether the law was clearly
established law.
27

The same is true for Hopper v. Plummer, 887 F.3d 744, 748-55
(6th Cir. 2018), another case relied upon by Plaintiffs that was decided
after December 2015 (finding officers not entitled to qualified
immunity when officers used their body weight to restrain an inmate,
who had a seizure and was not resisting, in handcuffs in the prone
position during a 22-minute encounter).

-App. 71acombination—the Court finds that the officers are entitled
to qualified immunity.
The Eighth Circuit has made it clear: “Officials are not
liable for bad guesses in gray areas; they are liable for
transgressing bright lines.” Davis v. Hall, 375 F.3d 703,
712 (8th Cir. 2004) (quotation omitted). See also BusseyMorice II, 657 Fed. App’x at 913 (“[I]f case law, in factual
terms, has not staked out a bright line, qualified immunity
almost always protects the defendant.”) (internal
quotations and citations omitted). Here, there is no bright
line.
The circumstances in this case were tense, uncertain,
and rapidly evolving. While the ultimate injury here is
fatal and unfortunate, the “‘mere fact that an injury
occurred while an individual was in police custody is not
sufficient to avoid summary judgment.’” Williams v.
Chambers, No. 4:07CV01409 ERW, 2010 WL 481299, at
*14 (E.D. Mo. Feb. 5, 2010). Despite the result that night,
qualified immunity insulates the Officers from liability for
Mr. Gilbert’s death.
Since Plaintiffs have failed to establish the conduct in
this case, even when construed in the light most favorable
to them and accepting their theory of events, violated
clearly established standards, the Court need not reach
the issue of whether the alleged facts demonstrate that
the Defendant Officers’ conduct was objectively
reasonable, i.e., violated a constitutional right. See, e.g.,
Smith, 754 F.3d at 546.
B. The City is entitled to summary judgment on Counts
I through III.
Plaintiffs argue they are entitled to relief under
Counts I through III because the City’s unconstitutional
policies and procedures, as well as its deliberately
indifferent training of its officers, caused the violation of

-App. 72aMr. Gilbert’s constitutional rights. Specifically, Plaintiffs
argue that the City’s policy for restraining citizens in
holding cells is facially unconstitutional and caused the
violation of Mr. Gilbert’s rights and that the City’s failure
to train its officers or enact constitutional policies relating
to restraining an individual in the prone position amounts
to deliberate indifference to citizens’ rights. (Doc. 79.)
A Fourth Amendment seizure requires an intentional
act by an officer, and does not address “accidental effects
of otherwise lawful government conduct.” Brower v. Cnty.
of Inyo, 489 U.S. 593, 596–97 (1989). This Circuit has
consistently recognized a general rule that, in order for
municipal liability to attach, individual liability first must
be found on an underlying substantive claim. See, e.g.,
Sanders v. City of Minneapolis, 474 F.3d 523, 527 (8th Cir.
2007) (“Without a constitutional violation by the individual
officers, there can be no § 1983 or Monell failure to train
municipal liability.”) (citing City of Los Angeles v. Heller,
475 U.S. 796, 799 (1986)); McCoy v. City of Monticello, 411
F.3d 920, 922 (8th Cir. 2005) (concluding because district
court properly granted officer summary judgment on
excessive force claim, the City could not be liable in
unconstitutional policy/custom theory or failure to
train/supervise theory); McVay v. Sisters of Mercy Health
Sys., 399 F.3d 904, 909 (8th Cir. 2005) (stating “[s]ince we
have found that [the officer's] actions were not
unconstitutional, McVay cannot make a prima facie case
against the City under section 1983”); Turpin v. Cnty. of
Rock, 262 F.3d 779, 784 (8th Cir. 2001) (concluding
because district court properly granted officers summary
judgment on qualified immunity grounds, county likewise
was entitled to summary judgment); Veneklase v. City of
Fargo, 248 F.3d 738, 748 (8th Cir. 2001) (en banc)
(declaring “where arresting police officers are absolved of
liability to arrestees, the City ordinarily is not liable”);

-App. 73aThomas v. Dickel, 213 F.3d 1023, 1026 (8th Cir. 2000)
(reasoning “[b]ecause we have found that the officers' stop
of the plaintiffs' car did not violate their fourth
amendment [ ] rights, it follows that the plaintiffs' claim
against the city (inadequate training and municipal
custom) must likewise fail”); Eagle v. Morgan, 88 F.3d
620, 628 (8th Cir. 1996) (declaring decision that officers'
conduct did not violate plaintiff’s constitutional right to
privacy disposed of related claims against the city); Abbott
v. City of Crocker, 30 F.3d 994, 998 (8th Cir. 1994) (holding
city cannot be found liable on either a failure-to-train
theory or a municipal custom/policy theory unless a
defendant police officer is found liable on an underlying
substantive claim).
The Court held above that the Defendant Officers are
entitled to qualified immunity in their individual capacity
because there was no clearly established constitutional
right. Therefore, the City cannot be held liable under §
1983 on either an unconstitutional policy or custom theory
or on a failure to train theory.
III. Conclusion
Accordingly,
IT IS HEREBY ORDERED that Defendants’ Motion
for Summary Judgment (Doc. 63) is GRANTED and that
all remaining counts are DISMISSED, with prejudice.
A separate judgment will accompany this Order.
Dated this 1st day of February, 2019.
/s/ Noelle C. Collins
NOELLE C. COLLINS
UNITED STATES
MAGISTRATE JUDGE

